<html>
<title> - ANTHRAX DECONTAMINATION</title>
<body><pre>[Senate Hearing 107-364]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-364
 
                        ANTHRAX DECONTAMINATION
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            SPECIAL HEARING

                   NOVEMBER 28, 2001--WASHINGTON, DC
                               __________

         Printed for the use of the Committee on Appropriations











 Available via the World Wide Web: http://www.access.gpo.gov/congress/

                                senate
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
77-708                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

           Subcommittee on VA, HUD, and Independent Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaha
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   MIKE DeWINE, Ohio

                           Professional Staff

                             Paul Carliner
                             Gabriel Batkin
                              Alexa Sewell
                         Jon Kamarck (Minority)
                          Cheh Kim (Minority)

                         Administrative Support
                         Isaac Green (Minority)











                            C O N T E N T S

                              ----------                              
                                                                   Page
Statement of Hon. Christine Todd Whitman, Administrator, 
  Environmental Protection Agency................................     1
Opening statement of Senator Barbara A. Mikulski.................     1
Statement of Senator Christopher S. ``Kit'' Bond.................     2
    Prepared statement...........................................     4
Statement of Christine Todd Whitman..............................     5
    Prepared statement...........................................     7
Statement of Hon. John H. Marburger, III, Director, Office of 
  Science and Technology Policy, Executive Office of the 
  President......................................................    11
    Prepared statement...........................................    13










                        ANTHRAX DECONTAMINATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2001

                           U.S. Senate,    
                Subcommittee on VA, HUD and
                              Independent Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:06 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Bond, Domenici, and Stevens.
STATEMENT OF HON. CHRISTINE TODD WHITMAN, 
            ADMINISTRATOR, ENVIRONMENTAL PROTECTION 
            AGENCY


            opening statement of senator barbara a. mikulski


    Senator Mikulski. The VA-HUD Subcommittee, Appropriations 
Committee will now come to order, and I wish to welcome the EPA 
Administrator, Christie Todd Whitman, and the Science Advisor 
to the President, Dr. John Marburger. First, we would like to 
say to Administrator Whitman, we welcome her back once again to 
testifying at this hearing. We know that she made significant 
effort to be able to testify here today, and we appreciate her 
courtesies to be able to do this, and also we clearly had an 
excellent relationship during the past year and look forward--
--
    Ms. Whitman. Thank you.
    Senator Mikulski. Dr. Marburger, we welcome you. We know 
that you were confirmed on October 21, exactly 6 days after the 
anthrax event in the Hart Building and the terrible events that 
occurred 2 days later at Brentwood, and we know that you have 
got a big job ahead of you, but President Bush has a lot of 
confidence in you, and we look forward to getting better 
acquainted with you and also to get your insights and 
recommendations today.
    The VA-HUD Subcommittee wanted to act very quickly to 
convene this timely hearing to discuss the issues of 
decontamination of anthrax both at the Hart Building, the 
Brentwood postal facility, and other private sector buildings 
that are exposed. This is to discuss the role of EPA and the 
Office of the Science Advisor to the President in terms of 
decontamination process.
    These two agencies are being asked to take on new and 
greater homeland security issues, so we have questions to ask, 
both about the science of decontamination, as well as the 
status and timetable of implementing them, and then also the 
science of determining how clean is safe for workers to be able 
to return to Hart, to Brentwood, et cetera.
    We also know that the President is asking you to take on 
these responsibilities in this great war against terrorism, 
that you will have additional need for resources, and as your 
appropriators we want to hear what challenges you are facing, 
how you are serving the Nation, and how this subcommittee can 
help you meet that challenge.
    Many VA-HUD agencies are now in the forefront of the 
consequence management of terrorism. This seems to be the 
Consequence Management Subcommittee. The Federal Emergency 
Management, of course, has consequence management for the 
Federal Government Agency. EPA and OSTP have very important 
roles that they are going to tell us about.
    Let us talk about the purpose of the hearing. First, I 
would like to know really who is in charge in the 
decontamination effort for the Federal Government, and who is 
in charge of the Capitol, Brentwood, and other facilities. Who 
is in charge of the science, to know what is the best 
methodologies for decontamination? Who is in charge of 
identifying the decontamination methods? Who is in charge of 
implementing them, and then who is in charge of telling us the 
criteria for how clean is safe?
    We understand that the goal for cleaning up the Hart 
Building has been set at zero spores, but we do not know if 
this is a goal, and we do not know if it is a standard. Also, 
we are worried about the short-range consequence of buildings 
being anthrax-free, or meeting the standard for safety, and we 
are also concerned about the long-term consequences of whatever 
is the clean-up methodology.
    So we are interested in those issues as well as the status 
of the decontamination, as well as the timetables for achieving 
it.
    We all would like to be back in the Hart Building. We know 
that the postal workers are deeply troubled about if they 
should even go back into Brentwood, but we would rather be safe 
than sorry. This is my position. We feel that you two are 
enormously conscientious public servants. We are going to turn 
to you today for your comments. What we also appreciate is your 
great competence, and we also need your candor about where we 
are in this process, what are reasonable expectations, and how 
we can join together in ensuring the safety of the people who 
work for the Federal Government and therefore also be able to 
give guidance to the private sector.
    I turn now to my esteemed colleague, the Ranking Member, 
Senator Bond.


            statement of senator christopher s. ``kit'' bond


    Senator Bond. Thank you very much, Madam Chair, and since I 
am between the microphones I trust that my voice is loud enough 
to carry. In any event, I welcome Governor Whitman back to make 
her second appearance, and it is a pleasure to meet Dr. John 
Marburger and congratulate you on being confirmed as the 
Science Advisor. I look forward to getting acquainted with you 
under better circumstances, but I do understand Dr. Marburger 
brings a lot of experience and expertise on science and 
technical issues, and be a valuable resource to the 
administration and to this committee.
    My sincere thanks and congratulations to the chair for 
holding this important hearing, especially since we in the 
Senate have had first-hand experience with anthrax 
contamination. While we have received periodic reports from the 
Capitol Police about the progress of decontamination efforts on 
the Hill, I think there are a lot of questions that we all have 
about exactly how the Federal Government is responding to these 
very unusually difficult circumstances, and how responses will 
be handled in the future for both the public and private 
sector.
    The day that we came together as a Senate to hear about the 
contamination, the first thing I raised was, what we do here 
not only is going to break ground, but it is going to set the 
standard. The standard that we believe is safe for us is going 
to be the standard that is adopted, essentially by everybody, 
and we want to make sure that that is the right standard, that 
it is based on sound scientific and medical information.
    There has been a lot of confusion about public health 
dangers of anthrax on Capitol Hill and the safety of 
remediation options. In particular, response to remediation has 
been handled differently in the Senate Hart than in Senate 
Russell Office Buildings.
    The Hart Building is closed, and the Russell Building 
remains open, with the exception of certain contaminated areas, 
and I understand that they have adopted there a standard of 
medically insignificant as an appropriate standard, and maybe 
that is the right standard, but I also need to hear from EPA 
and OSTP how the anthrax remediation efforts are being done on 
Capitol Hill compared to other parts of the country, such as 
New York and Florida, and Kansas City, where we had a mail 
facility contaminated.
    If different approaches are being taken in different areas, 
instead of a uniform approach, I think we need to know why the 
difference. It is critical that we develop standards that 
establish if there is a level of anthrax that is not a health 
hazard, and how clean our buildings need to be to ensure 
workplace safety. If it is impossible to get every last spore 
out, do we have to tear the buildings down.
    The uniform guidelines need to be developed on how to 
respond properly to this contamination of anthrax so that our 
response does not appear to be haphazard. I emphasize the need, 
because we have to maintain public confidence and avoid 
unwarranted hysteria.
    In the early 1980's, when I served as Governor of Missouri, 
a small community was found to be contaminated with dioxin, and 
extremely expensive efforts were made to clean up the area, and 
the greatest danger came from the hysteria spread by the 
national media, and we knew we needed to clean it up, but how 
clean, and the lingering effects had far greater impact than 
the dioxin ever did, and I do not think we need to fall into 
that trap. We need to make sure it is safe, but we cannot cause 
panic, confusion, or shut down the Government because we demand 
standards that are impossible.
    I am not here to criticize any person or any organization, 
because we have had really no experience outside of our 
veterinarians, particularly in livestock areas where they deal 
with anthrax all the time, and how to deal with anthrax 
contamination in buildings, and here we had literally to 
reinvent the wheel, but I hope that our witnesses today can 
shed more light on what has occurred and what lessons have been 
learned. I hope the Federal Government can, as I believe we 
must, develop a uniform approach to respond to anthrax or any 
other contamination that we may encounter, and I hope the 
approach will result not only in substantially reduced risk to 
the public health, which is a must, but also a minimal 
disruption to either the Government or other private 
activities.
    I am very pleased that the President has addressed this 
issue by coordinating the Federal Government's efforts through 
the Office of Homeland Security, and I would like to know how 
you are working with that. We must also have the best science 
available, and OSTP has the unique capability to pull together 
all the scientific expertise and knowledge so that we all 
understand the implications of biological and chemical agents.
    As the chair has noted, a number of Federal agencies are 
involved in consequence management at the various facilities, 
and the current lines of authority are beginning to look more 
like a late unlamented national health plan that looked like a 
spaghetti bowl gone wild, and sometimes it is easier to get 
interagency cooperation--it is less easy to get interagency 
cooperation than to build a bridge to Hawaii, but the time has 
come when we have to get that done.
    We are committed to ensuring that the Federal Government 
has adequate resources to prevent and respond to terrorist 
attacks, but we must have a coordinated approach, and I just 
want to add personally before I conclude a special thanks to 
two key EPA staffers, Richard Rupert, the on-scene coordinator, 
and Thomas Voltaggio, the Deputy Administrator of Region 3, so 
they are under a great deal of pressure, everybody wants to get 
back in, but we very much appreciate the efforts that these two 
and the teams they head ensuring that we decontaminate the 
building the right way, because I certainly would not want to 
send my chair back into an unsafe building.
    I thank you very much.
    [The statement follows:]

               Prepared Statement of Christopher S. Bond

    Thank you, Chairperson Mikulski. I also welcome Governor Christine 
Todd Whitman from EPA for making her second appearance before the 
subcommittee, and Dr. John Marburger, who is making his first 
appearance. I congratulate you Dr. Marburger on being confirmed as the 
Science Advisor for the President. I look forward to working with you 
and your office. Dr. Marburger brings a lot of experience and expertise 
on science and tech issues and will be a valuable resource to the 
Administration and this Committee.
    I applaud the Chairperson for holding this important hearing 
especially since we, in the Senate, have had first-hand experience with 
anthrax contamination. While we have received periodic reports from the 
Capitol Police about the progress of the decontamination efforts on 
Capitol Hill, I believe that there are many questions about exactly how 
the Federal government is responding to these unusual and difficult 
circumstances, and how responses will be handled in the future, for 
both the public and private sectors.
    For example, there has been some confusion about the public health 
dangers of anthrax on Capitol Hill and the safety of the remediation 
options. In particular, response and remediation has been handled 
differently in the Senate Hart and Russell office buildings where the 
Hart building is closed and the Russell building remains open with the 
exception of certain contaminated areas.
    I would also like to hear from EPA and OSTP how the anthrax 
remediation efforts are being done on Capitol Hill compared to other 
parts of the country such as New York and Florida. It appears that 
different approaches have been taken in these different areas instead 
of a uniform approach. I believe that it is critical that we develop 
standards that establishes what level of anthrax is considered ``safe'' 
and how ``clean'' our buildings need to be in order to ensure workplace 
safety. Also, uniform guidelines need to be developed on how to 
properly respond to anthrax contamination so that our response does not 
appear to be haphazard. I emphasize this need because we must maintain 
public confidence and avoid unwarranted hysteria. Without public 
confidence, the terrorists win and that is unacceptable.
    I want to be clear that I am not here to criticize any person or 
any organization because I recognize that there has been little or no 
experience in dealing with anthrax contamination. I think that it is 
accurate to say that we are literally ``inventing the wheel'' as we 
respond to the anthrax contamination on Capitol Hill. I hope that EPA 
and OSTP can shed some more light on what has occurred and what lessons 
have been learned from the experience on the Hill and other sites 
across the Nation.
    From these lessons learned, I hope that the Federal government 
develops a systematic and uniform approach to respond to anthrax or any 
contamination. I am hopeful that any approach will result in 
substantial reduced risk to public health as well as minimal disruption 
to business as usual. I also commend President Bush for addressing the 
importance of coordinating the Federal government's anti-terrorism 
efforts by establishing the Office of Homeland Security. I would like 
to hear about EPA and OSTP's experiences in working with this new 
office.
    We must also have the best science available and the Office of 
Science and Technology Policy should be a key player in coordinating 
this work. OSTP has the unique mission of being able to pull together 
the scientific expertise and knowledge from the appropriate Federal 
agencies to ensure that we understand all of the implications of 
biological and chemical agents and how to adequately remediate these 
agents.
    As the Chair noted, there are a number of Federal agencies 
currently involved in the consequence management of the anthrax 
exposure at the D.C. Brentwood postal facility and the Senate Hart 
Building. The current lines of authority are beginning to look almost 
as confusing as the old Clinton health care plan. I know that 
interagency efforts can sometimes be as easy as building a bridge to 
Hawaii but the events of September 11 will hopefully break down the old 
turf battles that too often exist. And while we are committed to 
ensuring that the Federal government has the adequate resources to 
prevent, prepare, and respond to terrorist attacks, we must have a 
well-coordinated approach so that the roles and responsibilities of 
each appropriate agency is clearly defined.
    Before I close, I would like to recognize the hard work and 
pressure that the EPA staff have been subjected to in dealing with the 
anthrax problems here on Capitol Hill. Specifically, I want to thank 
two key EPA staff, Richard Rupert, the On-Scene Coordinator, and Thomas 
Voltaggio, the Deputy Regional Administrator of Region 3. Many of my 
colleagues are anxious to get back in their Hart offices so I know that 
you are under a lot of pressure. But, I want you to know that I 
appreciate your efforts in ensuring that we decontaminate the building 
the right way to ensure the maximum workplace safety and not purely for 
expedience sake.
    Thank you.

    Senator Mikulski. Senator Stevens, would you like to----
    Senator Stevens. No, I do not have any questions. I hope 
when Senator Bond starts his bridge to Hawaii, though, he 
starts from the Aleutian Chain. It would be a shorter distance, 
you know.
    Thank you very much. Nice to see you.
    Senator Mikulski. Having had these opening remarks, then 
Administrator Whitman, why don't you go first, and then we will 
hear from Dr. Marburger, and then we will open it up for 
questions according to our usual rules of engagement.

                  STATEMENT OF CHRISTINE TODD WHITMAN

    Ms. Whitman. Fine, and thank you, Madam Chair and members 
of the subcommittee. I have, with your permission, a lengthier 
written statement that I would like to submit for the record, 
and to say that since September 11 the Environmental Protection 
Agency has seen its longstanding mission to protect the public 
environment and public health take on renewed sense of urgency 
and some new meaning.
    Under the provisions of the Presidential decision directive 
number 62, which was signed back in 1998, EPA is assigned the 
lead responsibility for cleaning up buildings and other sites 
contaminated by chemical or biological agents as a result of 
acts of terrorism. This responsibility draws, obviously, on our 
decades of experience in cleaning up sites contaminated by 
toxins through prior practices or accidents. Our role at a site 
generally begins with the Centers for Disease Control 
determining the presence of a contaminant that poses an 
unacceptable risk to human health.
    Once the decision is made to decontaminate a building, CDC 
also has the responsibility of defining how clean is clean. We 
rely on them to determine the extent to which a building must 
be clean to make it safe for reoccupancy. The sites themselves, 
of course, are under the control of the incident commander, 
usually someone from the local response team.
    With respect to the cleanup of those places that have been 
found to be contaminated by anthrax, several different 
approaches have been taken as Senator Bond has alluded to. The 
Postal Service, for example, has hired qualified contractors to 
perform the cleanup, the decontamination of their facilities, 
as did several of the media organizations. In these cases, EPA 
has provided technical assistance to those who are actually 
doing the cleanup work.
    Here on Capitol Hill, we have been asked by the Senate 
Sergeant at Arms, who is serving as your incident commander, to 
undertake the cleanup of the Hart Senate Office Building, just 
as we were asked by the Clerk of the House, who serves as their 
incident commander, to fulfill that function on the House side.
    As you know, the cleanup of the Hart Building poses a far 
greater challenge, and the most extensive cleanup for anthrax 
that has ever been undertaken in a building. To meet this 
unprecedented situation, our cleanup experts have been drawing 
on their years of expertise and experience, on the talents of 
scientists and industry, and academia, and on the knowledge 
available from our Federal partners to devise the right plan 
for the Hart Building.
    As we seek to apply the lessons we have learned from all of 
the decontamination efforts from the simplest to the most 
complex, and there always will be that variety in the response, 
one thing has become quite clear, and that is that one size 
will not fit all. Each event has to be thoroughly analyzed as a 
separate case before we can propose an effective solution. For 
example, decontaminating or cleaning a facility that contains 
rugged heavy equipment can be accomplished using foams or 
liquids, methods that the contents of the building can stand up 
to.
    On the other hand, a facility that contains a lot of paper, 
office furniture, and electronic equipment needs to be cleaned 
up using a different method, such as fumigation, that will not 
damage the contents in a way that a liquid or a foam solution 
would.
    Other factors, such as the amount of the contaminant found, 
the ways and extent to which it can be dispersed throughout the 
building, the nature of the surrounding area, and the ways in 
which the building is used, all require added consideration 
before proceeding with decontamination. That is why it is 
taking more time to address the Hart Building decontamination 
than any of us, believe me, would like.
    Because of the size and scope of this particular challenge, 
it is vitally important that we use the best science available, 
that we take the time to do it right, and that we assure that 
we are advancing our knowledge base as part of our effort. Of 
course, while we are all hopeful that the information that we 
are gaining about cleaning larger buildings contaminated by 
anthrax will never have to be used again--I think we all are 
certainly praying for that--we must proceed as if it will, and 
I take the Senator's point on that. That is why there are two 
specific things that I would ask you to consider in the future 
as ways that you can help us.
    The first concerns indemnifying the contractors that EPA 
hires to perform the actual cleanup. We spent a great deal of 
time in recent days, over the Thanksgiving holiday 
particularly, working to provide the contractors we are hiring 
to perform the Hart decontamination with sufficient protection 
from liability should something unexpected occur during the 
course of that cleanup.
    After a lot of hard work, we have now worked that issue 
out. I believe it was finalized yesterday, but it should not 
have been as difficult as it became for us. EPA's current 
indemnification authority under CERCLA is not adequate to meet 
the needs resulting from acts of terrorism. That is why it 
would be helpful in the future if EPA's indemnification 
authority could be extended to meet responses to domestic 
terrorism activities or acts as a separate category for us.
    The second issue where I would like to ask for your help 
concerns EPA's ability to recover costs from cleanup. 
Currently, EPA can recover costs from performing the cleanup of 
a hazardous substance. This authority, however, does not extend 
to biological agents or various other pollutants that could be 
used in a terrorist act.
    Giving EPA the ability to recover those costs in those 
instances would remove one more issue from the table, as we 
enter into the cleanup efforts, and enable us to move forward a 
little more rapidly, and I want to point out this has not been 
an issue with the Hart Building. The Senate has indicated that 
they would pay us for that from the beginning, and we are very 
grateful for that. We appreciate that.
    Madam Chair and members of the subcommittee, I thank you 
again for the opportunity to meet with you here today, and look 
forward to answering any questions that you might have on these 
issues.
    [The statement follows:]

              Prepared Statement of Christine Todd Whitman

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to describe the Environmental Protection Agency's (EPA) 
role in combating bioterrorism: specifically, the role in the 
decontamination of anthrax in buildings as part of the Agency's overall 
mission to protect human health and the environment. I am pleased to 
say that EPA's efforts to meet its counterterrorism obligations are 
consistent with the President's statement that combating terrorism and 
protecting the nation's critical infrastructures are a high priority 
for his administration.
    There are several Presidential Decision Directives (PDDs) that 
specify a role for EPA in counter terrorism activities. PDD 39 assigned 
EPA the task of assisting the FBI during crisis management in threat 
assessments and determining the type of hazards associated with 
releases or potential releases of materials in a terrorist incident. 
EPA, as the lead agency for Hazardous Materials Response under 
Emergency Support Function (ESF) 10 of the Federal Response Plan, is 
also assigned to assist the Federal Emergency Management Agency, during 
consequence management with environmental monitoring, decontamination, 
and long-term site cleanup. PDD 62 reinforces our mission to enhance 
the nation's capabilities to respond to terrorist events. PDD 63 which 
addresses the protection of America's critical infrastructure, named 
EPA the lead agency for the Water Supply Sector.
    Under the provisions of PDD 62, signed by President Clinton in 
1998, the EPA is assigned lead responsibility for cleaning up buildings 
and other sites contaminated by chemical or biological agents as a 
result of an act of terrorism. This responsibility draws on our decades 
of experience in cleaning up sites contaminated by toxins through prior 
practices or accidents.
    Working with our Federal partners, private sector experts, and 
drawing upon our considerable in-house expertise, EPA has been 
developing new methods and protocols, and standard operating procedures 
to deal with this new threat to the health and safety of the American 
people. And we have been doing so on a real-time basis. The speed of 
our response, however, has not been at the expense of sound science. 
Indeed, a team of science experts has been integral to our daily 
activities.
           epa's role in buildings contaminated with anthrax
    Our cleanup experts have been drawing on their years of expertise 
and experience, on the talents of scientists in industry and academia, 
and on the knowledge available from our Federal partners. Similar 
analysis informed the cleanups undertaken at the several postal 
facilities and media offices, although since they were of a much 
smaller scope, they were more readily addressed.
    Our role at a site generally begins after the Centers for Disease 
Control and Prevention (CDC) has tested to determine the presence of a 
threat and the risk that threat poses to human health. Once a decision 
is made to decontaminate a building, CDC also has the responsibility of 
defining: ``How clean is clean?'' They have the medical knowledge and 
expertise--as well as the responsibility under PDD 62--to determine the 
levels to which a building must be cleaned before being judged safe for 
reoccupancy.
    EPA staff has provided expert technical advice to facility managers 
throughout the country on issues such as sampling plans, worker safety 
and actual site cleanup methods.
    This role is a natural fit for EPA's on-scene coordinators, 
managers who are experienced in assessing contamination in structures, 
soil, water and air-handling systems. On-scene coordinators have 
considerable experience at sorting out hazards, quantifying risks, 
planning and implementing emergency cleanups, and coordinating among 
other agencies, State and local government, and the private sector.
    EPA employees are working at the direction of the incident 
commanders from other Federal agencies, and report to the U.S. Postal 
Service and the Sergeant at Arms in the Capitol.
    In addition to the activity generated by testing and cleaning, 
these sites are also being treated as crime scenes. That is why our 
Criminal Investigative Division has been working closely with the FBI 
and with local and State law enforcement agencies at the various 
contaminated sites. We are assisting the FBI in gathering evidence to 
identify the criminals responsible for terrorist attacks.
    As we seek to apply the lessons we're learning from all our 
decontamination efforts one thing is becoming clear--there's no one 
size fits all solution. Each event has to be thoroughly analyzed as a 
separate case before we can propose an effective solution.
    For example, cleaning a facility that largely contains rugged, 
heavy equipment can be accomplished using such methods as foam or 
liquid chlorine dioxide--methods that the contents of the building can 
stand up to. On the other hand, a facility that contains lots of paper, 
office furniture, and electronic equipment needs to be cleaned using 
another method--such as fumigation--that won't damage the contents in 
the way a liquid would.
    Other factors, such as the amount of contamination found, the ways 
and extent to which it can be dispersed throughout a building, the 
nature of the surrounding area, and the ways in which the building is 
used all require additional consideration before proceeding with 
decontamination.
    The first step in remediating a building is just like the first 
step in any cleanup operation and that is to determine the potential 
for risk to human health. Anthrax is a known threat to human health, 
but the literature is scant on the number of spores that a person must 
be exposed to before developing inhalational disease.
    The health team that has come together to help us establish the 
parameters for defining the extent of contamination and providing 
direct health advice to affected individuals has involved a wide array 
of experts. The Congress's own Office of the Attending Physician has 
played a central role in providing direct medical advice to the people 
who work in the affected buildings. The CDC in the Department of Health 
and Human Services (in particular the National Institute for 
Occupational Safety and Health (NIOSH) within CDC) have provided world-
class expertise. The Department of Defense, including the U.S. Army's 
CHPPM group has special expertise because of the potential that anthrax 
would be used as a biological weapon in a war setting. OSHA has been 
helpful in determining appropriate safety measures both for the people 
who work in the buildings and also for the extensive remediation crews 
that are at work here. The District of Columbia's Department of Health 
as well as their State counterparts, Maryland's Department of Health 
and Mental Hygiene, have been consulted regularly. And EPA's own in-
house expertise including toxicologists from as far away as our Denver 
office and safety officers from our own nearby Ft. Meade laboratory 
have also played a vital role.
    Together this group of experts has reached consensus on when 
cleanup activities are warranted, and they have also formed a team to 
review final cleanup data to make a determination that the buildings 
will be safe to reoccupy.
                         remediation strategies
    While we have developed extraordinarily strong working 
relationships with numerous partners in developing the appropriate 
health and safety standards and in conducting our sampling work, it is 
in the area of actual remediation efforts that our collaborations have 
been the most broad-based.
    The full array of Federal agencies with expertise in remediation 
strategies has been involved in helping develop the tools we need to 
deal with anthrax contamination. These include, of course, the various 
components of the Department of Defense and a number of health agencies 
out of the Department of Health and Human Services. We have consulted 
with the White House's Office of Science Technology Policy. Indeed, the 
President's science advisor has been at the Incident Command Center, 
providing a key link to this Federal government-wide response.
    At EPA, our Office of Solid Waste and Emergency Response, the 
Office of Pesticides, our Emergency Response Team out of Edison, NJ, 
the Emergency Operations Center here in Washington, and the legion of 
responders from across the country led by our folks from Region III, 
have all played important roles in the cleanup effort.
    A number of liquid and foam applications are effective at actually 
killing spores. Sandia Foam is a patented product, developed by the 
Sandia Labs, that we have been able to use on a number of surfaces. 
Similarly, chlorine dioxide in a liquid form, has been an extremely 
effective sporocide. We know these techniques work because we have used 
them in a number of areas. To address airborne particles, HEPA (high 
efficiency particulate air) filter vacuums are able to capture 
particles down to less than one-half micron in size. After the 
remediation effort is complete, we have resampled these areas and they 
have come back clean.
    The tools in our toolbox are growing rapidly. Each method, though, 
will have to prove its effectiveness before we add it to our Standard 
Operating Procedures. And that proof will come from confirmation 
samples that are taken after remediation is complete and come back 
demonstrating no threat to human health.
          epa's counterterrorism incident response activities
    As EPA continues to strengthen its counter-terrorism (CT) program 
by building on the existing national response system for hazardous 
materials (hazmat) prevention, preparedness, and response, the Agency 
is involved in a variety of activities with Federal, State, and local 
officials that include: responding to terrorism threats; pre-deploying 
for special events; planning, coordination, and outreach; and training 
and exercises. Most recently, EPA was asked to chair the Security and 
Safety of U.S. Facilities Group of the National Security Council's 
Policy Coordinating Committee for Counterterrorism and National 
Preparedness.
    EPA established and maintains a National Incident Coordination Team 
(NICT) to assure full agency coordination of all emergency preparedness 
and response activities including counter terrorism. In the regions, 
the Agency's first responders are the On-Scene Coordinators (or OSCs). 
The OSCs have been actively involved with local, State, and Federal 
authorities in preparing for and responding to threats of terrorism. 
EPA's OSCs, located throughout the United
    States, have broad response authority and a proven record of 
success in responding rapidly to emergency situations.
                        registration of products
    Another principal responsibility of EPA's in anthrax 
decontamination is to ensure that the chemicals used to treat anthrax 
spores are efficacious and safe. EPA is responsible for registering 
pesticides, including these antimicrobial products used to treat 
anthrax spores, prior to their marketing in the U.S.
    Before issuing a pesticide registration, the Agency reviews a 
significant body of data to determine whether use of that pesticide 
will result in unreasonable adverse effects to humans or the 
environment. These data can include information on short- and long-term 
toxic effects and examine the potential for exposure under expected 
application scenarios. For pesticides that have public health uses, 
such as those used on anthrax spores, EPA also critically evaluates 
their efficacy. Under emergency conditions, EPA may allow a new use of 
a previously registered pesticide or use of an unregistered pesticide 
where the Agency has sufficient data to make a safety finding. These 
decisions can often be made quickly, based on the data that EPA 
receives and reviews.
    Responding to the anthrax contamination has presented some unique 
challenges to our pesticides program. For example, currently there are 
no registered pesticides approved for use against anthrax. Since the 
beginning of the anthrax-contamination events, EPA has been working 
hard to identify and evaluate existing pesticide products that are 
sporicidal, that is, those that kill spore-forming bacteria, even 
though such products may not have been tested on anthrax per se. Since 
October, the Agency has approved two pesticides for treating anthrax 
spores under emergency exemption provisions of existing pesticide 
laws--the aqueous solution of chlorine dioxide and a foam used to treat 
anthrax-contaminated surfaces. We have identified several potential 
chemicals and new technologies which may be effective against anthrax. 
The Agency continues to work closely with other Federal agencies, 
emergency response teams, and independent experts to develop effective 
remediation tools. On the basis of site specific information, EPA 
recommends proper methods of decontamination including which 
antimicrobial or other substances will be used. EPA has also 
established a hotline for venders who believe they have products that 
could effectively treat anthrax and has begun daily briefings to 
establish routine communication between on-site personnel and key 
centers within the Agency who oversee and/or support them. EPA 
laboratories are assisting in testing samples from potentially 
contaminated sites and the evaluation of antimicrobial products for 
effectiveness against anthrax has been made a top priority. In 
addition, EPA is using its experience in this situation to develop 
approaches to handling future biological and chemical exposures should 
they occur.
                               conclusion
    September 11 has changed the world in which we live. EPA continues 
to rely on sound science and effective treatment techniques to address 
the threat of anthrax contamination in some of our nation's buildings. 
We are proud to be a part of a massive public-private effort to meet 
the challenges of this new world.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions that you may have.

    Senator Mikulski. Well, thank you very much. That was a lot 
in a very short time.
    Dr. Marburger, would you please proceed, and again you have 
covered a wonderful scientific background. We can see why the 
President has chosen you. Of course, you grew up in Maryland.
    A degree from Princeton, applied physics at Stanford, you 
have been the Director of the Brookhaven National Lab, you are 
the third president of SUNY at Stonybrook, you had many 
distinguished scientific awards, your peers have high regard 
for you, you are recognized for your own scientific research, 
and then of course you headed up a Federal lab, so we welcome 
you and look forward to your comments.
STATEMENT OF HON. JOHN H. MARBURGER, III, DIRECTOR, 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY, 
            EXECUTIVE OFFICE OF THE PRESIDENT
    Dr. Marburger. Thank you very much, Madam Chair. It is a 
delight for me to be here, because I think the actions that 
have occurred in the aftermath of these terrible incidents have 
demonstrated the capabilities of the Federal agencies to 
respond quickly and effectively. Despite the occasional 
appearance of spaghetti organization charts we communicate 
frequently, and effectively, and I think we have a good story 
to tell.
    The contamination problem has two parts. One is the 
decontamination of buildings, and the other is the sanitization 
of the mail itself, which is the source of the contamination, 
of course, and whereas EPA has focused on the building issue, 
which is extremely difficult, we have been providing support 
for the U.S. Postal Service and others regarding the mail.
    I have a fairly long statement that I leave with you, but I 
would like to go through parts of it because I think it shows 
as a case study, as it were, just how the process works.
    First, the charge from homeland security. At the end of 
October I was called by Governor Ridge to take charge of 
technical issues surrounding the treatment of the mail that was 
contaminated in the Brentwood facilities, and the next day, the 
day following his call, I managed to convene an interagency 
meeting with chief science officials and the Postal Service, 
and there were dozens of agencies that responded, to ascertain 
the technical issues that the Postal Service was encountering. 
It was a roundtable sort of discussion, and through this 
process a technical task force on mail security was 
established.
    The U.S. Postal Service did welcome the technical advice of 
OSTP, as they had been previously interacting with multiple 
individual agencies on an ad hoc basis, so on October 30, the 
next day after the phone call, I convened the task force 
meeting and determined during the discussion that we simply did 
not have all the information needed to make a decision about 
the irradiation process in the Lima, Ohio, facility.
    Despite the fact that the U.S. Postal Service already had 
contracted for exclusive use of this facility for 6 months, I 
recommended the formation of an interagency technical team, a 
subset of the agencies that responded to the initial call, to 
go to the facility in Ohio in order to test whether this 
process was sufficient to rid the mail of bacterial 
contamination.
    A team was formed that day, and consisted of scientific 
experts from the Armed Forces Radiobiology Research Institute, 
AFRRI, an exceptional small but effective institute, National 
Institutes of Standards and Technology, NIST, United States 
Department of Agriculture, Food and Drug Administration, and we 
had others on call as needed.
    The team met the following day and assembled two test boxes 
that would be used to measure the amount of radiation received, 
and whether it would kill the bacterial contaminants, and I 
describe those boxes in detail in my statement.
    The first box was taken with the team to Lima, and the 
second box was loaded at Brentwood and sent to Lima by one of 
the mail trailers that was in the stream. It was marked so that 
we could identify it later.
    A representative from the Postal Service was there, 
accompanied the technical team on their November 1 trip. This 
facility uses electron beam of radiation. The test revealed 
that the radiation dosage was in a range that exceeded, far 
exceeded the minimum needed to kill bacillus spores. These 
spores have similar characteristics as far as their response to 
radiation is concerned, so we did not feel it was necessary to 
use live anthrax in order to perform this test. It would have 
exposed the workers in that facility to hazard at any rate.
    The simulant of the bacillus globigii was cultured over a 
standard 2-week period. The only way that you can tell whether 
you have killed it or not is to try to grow it in a broth, as 
it were. There is another, faster method for detecting anthrax, 
which is so-called polymerase chain reaction, but it can 
respond to dead anthrax as well as to live anthrax, possibly 
important to know that, so the only way that you can tell if 
you have killed it is by culturing it over a period of time.
    The same process was used for the second test box with the 
same results. That is, after 2 weeks, no bacterial colonies 
were grown. There was no bacteria there to produce, and that is 
how you tell if you have killed it. This demonstrated that the 
Lima facility was using an irradiation protocol capable of 
delivering a dose of radiation lethal to bacteria.
    The unanimous recommendation of the technical team--which, 
by the way, examined the entire process, from delivery into the 
plant through the detailed circulation of the boxes under the 
e-beams. They were rotated in several directions, they measured 
the pattern of radiation within the boxes, and various means. 
The unanimous recommendation of the team that did that was to 
release the letters that had been irradiated at the Lima 
facility, and based on this recommendation, the Postal Service 
did initiate the delivery of the letters quarantined at the 
Brentwood facility and processed through Lima.
    Irradiation was chosen in the first place by the U.S. 
Postal Service because it is a proven technology, it has been 
used in the food industry to sanitize--and also to sanitize 
medical equipment, and prosthetic devices that are implanted in 
the human body. It has been used for decades. There is a 
regulatory history of the process. There are standards for the 
equipment that is used and, of course, other technologies may 
be promising for the future, but currently irradiation appears 
to be the best immediate option.
    There are some side effects. One has to understand that the 
radiation not only kills anthrax, but it also may alter 
specimens used for medical diagnoses that might be sent through 
the mail. Film would be exposed, certain other substances are 
affected. It is unlikely that these items would be contained in 
the type of letters that are currently being delivered first 
class mail, but they may be contained in the packages that are 
yet to be irradiated.
    There are other technologies that have been proposed and 
could be used in the future. I indicate them in the next 
paragraph of my statement. I will pass over those to make this 
shorter.
    At the same time that we formed the team and sent it to the 
Lima facility and sent it to other facilities, we established 
three interagency working groups under OSTP to continue the 
work started by the technical task force. They include an 
irradiation process and quality assurance group, detection and 
monitoring group, and a group on long-term issues. The first 
includes scientific experts representing DOD, AFRRI, the 
previous facility that I mentioned, NIST, FDA, and USDA, and 
this team has presented numerous interagency briefings to 
assure dissemination of their test results and their approach.
    I might add that we have had excellent cooperation from all 
the agencies that have been contacted. They work with us well, 
and I am very pleased at the speed of the response.
    The detection and monitoring group is chaired by the DOD 
DARPA agency, and includes CIA, Office of the Vice President, 
Department of Energy, U.S. Postal Service, the Armed Forces 
Radiological Research Institute, NIOSH, Department of Defense, 
and so forth, and also consults with outside experts. They are 
collecting information on the efficacy and utility of existing 
technology for detecting microorganisms as they might be 
encountered in the mail-handling process.
    The third group will take findings from the first two and 
determine whether any issues have been overlooked.
    OSTP is also working closely with the National Academies of 
Science, which has graciously volunteered the extensive 
knowledge base of its membership in evaluating options for 
ensuring mail security.
    An overarching goal for all of the initiatives I have 
described is coordination of the activities of all of those who 
can contribute to ensuring that our mail is safe, drawing upon 
the technical expertise housed in our science and technology 
agencies, making sure that relevant information and test 
results are disseminated to the appropriate parties, and 
preventing duplication of effort.
    I have been very impressed during this period with the 
breadth and the depth of scientific and technical resources 
available within the Federal Government to address these major 
challenges, great as they are, but I am just as certain that 
those resources cannot be used to their greatest effect unless 
we join forces and resolve the technical issues together, and 
at this point I see no evidence of resistance or turf battles 
that might impede this effort.
    I might add, finally, that our interaction with the Office 
of Homeland Security, their staff, Governor Ridge, has been 
absolutely first-rate. I regard these activities as having been 
performed in support of the Office of Homeland Security, and 
the actions that we have taken are taken on their behalf.
    Thank you.
    [The statement follows:]

                Prepared Statement of John H. Marburger

    Good afternoon Madame Chair and Members of the Subcommittee. It is 
a pleasure to be here today to testify on the issue of anthrax 
decontamination. OSTP has played significant role in the mail security 
issue and I am happy to detail those efforts for you.
                     charge from homeland security
    In the fourth week of October, I was called by Governor Ridge to 
take charge of the technical issues surrounding treatment of the mail 
contaminated at the Brentwood, D.C., and Trenton, N.J., postal 
facilities. The next day I convened an interagency meeting with chief 
science officials and the Postal Service to ascertain the technical 
issues that the Postal Service was encountering. Through this process a 
technical task force on mail security was established.
                      formation of technical team
    The U.S. Postal Service welcomed the technical advice of OSTP as 
they had been interacting with multiple individual agencies on an ad 
hoc basis. On October 30, I convened an interagency task force meeting 
regarding the issue of mail security. I determined during the 
discussion that we did not have all the information needed to make a 
decision about the irradiation process at the Lima, Ohio facility. 
Despite the fact that the U.S. Postal Service already had contracted 
for exclusive use of this facility for six months, I recommended the 
formation of an interagency technical team to go to the Lima facility 
in order to test whether the irradiation process was sufficient to rid 
the mail of bacterial contamination.
    A team was formed that day and consisted of scientific experts from 
the Armed Forces Radiobiology Research Institute (AFRRI), National 
Institute of Standards and Technology (NIST), United States Department 
of Agriculture, and Food and Drug Administration (FDA). The team met 
the following day and assembled two test boxes that would be used to 
measure the amount of radiation received and the killing of bacterial 
contaminants.
    The test boxes consisted of a mail package identical to the ones 
packed at the Brentwood post office and sent to the Lima, Ohio 
facility. It contained non-disease causing dry bacterial spore powder 
of Bacillus globigii (glo-bee-gee-I), very similar to the Bacillus 
anthracis that was found in the ``Daschle'' letter, and dosimeters that 
measure the dose of irradiation. The first test box consisted mainly of 
paper and lightweight materials with nothing that would perturb the 
radiation dose distribution. A second box was prepared and loaded with 
many irregular objects--metal, CDs, coins--in addition to spores and 
dosimeters, to see if they have an effect on the killing of bacterial 
spores.
    The first test box was taken with the technical team to Lima and 
the second test box was loaded at Brentwood and sent to Lima by one of 
the mail trailers. It was discreetly marked so it could be identified 
and tested after the irradiation process.
                   testing of irradiation facilities
    A representative from the U.S. Postal Service accompanied the 
technical team on the November 1 trip to Lima. The Lima facility uses 
electronic beam irradiation and the test revealed that the radiation 
dosage was in a range that exceeded the minimum needed to kill 
Bacillus--spores. The simulant, Bacillus globigii, was cultured over a 
standard two-week period and no bacterial colonies were grown. The same 
process was used for the second test box with the same results. This 
demonstrated that the Lima facility was using an irradiation protocol 
capable of delivering a dose of radiation lethal to bacteria. The 
unanimous recommendation of the technical team was to release the 
letters that had been irradiated at the Lima facility. Based upon this 
recommendation, the U.S. Postal Service initiated delivery of the 
letters quarantined at the Brentwood facility and processed through 
Lima.
    The U.S. Postal Service contracted with another irradiation 
company, IBA, to use its facility in Bridgeport, New Jersey. This 
facility contains electronic beam (e-beam) irradiation equipment as 
well as x-ray irradiation equipment. At this time only the e-beam 
technology is operational. On November 16, the technical team drove to 
Bridgeport to test a box of letters in much the same way that the Lima 
facility was tested. It is important to test these facilities 
separately as their processes differ.
    On November 21, the technical team went back to the Lima facility 
in order to test ``flats'' which are the typical 8\1/2\ <greek-e> 11 
envelopes. It is anticipated that by the first of the year the x-ray 
equipment at Bridgeport should be operational. At that time, the 
technical team will be able to test the irradiation of packages. X-ray 
irradiation may prove to be the preferred option for packages because 
x-rays penetrate better than e-beam irradiation.
    Irradiation was chosen because it is a proven technology and has 
been used in the food industry and to sanitize medical equipment for 
decades. Other technologies may be promising for the future but 
irradiation is the best immediate option.
                      side effects of irradiation
    The contaminated mail from Brentwood and Trenton must be treated 
prior to delivery. This mail includes letters, flats, and packages. 
Several items will be adversely affected by the dose of radiation that 
is needed to kill bacteria. These include: medical specimens, including 
fecal and blood; drugs; test kits; electronic equipment; film; food; 
eyeglasses and contact lenses. Although it is unlikely that these items 
would be contained in the letters that are currently being delivered, 
they may be contained in the packages that are yet to be irradiated.
                           other technologies
    Other technologies have been proposed as alternatives or 
supplements to irradiation, include heat treatment and chemical 
fumigation. Heat treatment seems unlikely to provide a solution for 
large amounts of mail, since the target temperature is well over 300 
degrees Fahrenheit, which could result in damage to many mailed items. 
Within the realm of chemical treatment, OSTP is coordinating with the 
Environmental Protection Agency (EPA) and Department of Justice (DoJ) 
to explore the use of chlorine dioxide and ethylene oxide as 
alternatives or supplements to irradiation. These technologies have 
promise but need more extensive research and testing before they can 
become a viable option for treating mail. Specifically, we need to know 
more about how well these chemicals penetrate the mail and kill 
dangerous organisms, the speed at which this treatment can occur, and 
the safety of these chemicals both during treatment and during 
subsequent handling of the mail. These treatments probably will not 
solve the problem of routine bulk mail treatment, but may be useful in 
certain specific situations.
                      mail security working groups
    OSTP established three interagency working groups to continue the 
work started by the technical task force. The working groups include: 
(1) Irradiation Process and Quality Assurance; (2) Detection and 
Monitoring; and (3) Long-term Issues. The first group includes 
scientific experts representing DOD/AFRRI, NIST, FDA and USDA. This is 
the team that has site-visited the irradiation facilities, consulted 
frequently with the U.S. Postal Service, and presented numerous 
interagency briefings to ensure dissemination of their test results.
    The Detection and Monitoring group is chaired by the DOD Defense 
Advanced Research Projects Agency (DARPA) and includes CIA, Office of 
the Vice President, Department of Energy, USPS, AFRRI, NIOSH, DOD/JPBIO 
and consults with outside experts. They are collecting information on 
the efficacy and utility of existing technology for detection of 
microorganisms as they might be encountered in the mail handling 
process. The third group will take the findings from the first two 
groups and determine whether any issues have been overlooked. 
Membership will draw from the experts in the first two groups, as well 
as agencies responsible for worker and environmental health and safety, 
including EPA and the Occupational Safety and Health Administration. 
This group will take into account the benefits and limitations of 
existing technology for detecting pathogens that might enter the mail 
system and processes for mail sanitization and facility 
decontamination. Recommendations will be based also on new technologies 
in the pipeline that may have additional benefits over currently 
available methods. All of these groups will report technical findings 
and recommendations to OSTP and I will then forward relevant 
information to the Office of Homeland Security.
                               conclusion
    OSTP is also working closely with the National Academies of 
Science, which has graciously volunteered the extensive knowledge base 
of membership in evaluating options for ensuring mail security.
    An overarching goal for all of the initiatives I have described is 
coordination of the activities of all those who can contribute to 
ensuring that our mail is safe--drawing upon the technical expertise 
housed in our science and technology agencies, making sure that 
relevant information and test results are disseminated to the 
appropriate parties, and preventing duplication of effort.
    In the short time I have been in this position, I've been impressed 
with the breadth and depth of scientific and technological resources 
available within the Federal government to address the major challenges 
we are facing today--great as they are. But I'm just as certain that 
those resources can't be used to their greatest effect unless we join 
forces and resolve the technical issues together.

                   RESPONSIBILITY FOR DECONTAMINATION

    Senator Mikulski. Thank you very much, Dr. Marburger. I 
know you can go on more extensively about it, but we appreciate 
that, and let me go to my first round of questions, and we are 
going to follow generally the 5-minute rule, but I would like 
to inquire of the chair of the full committee, Senator Stevens, 
do you have to get back to a conference or anything, Senator?
    Senator Bond. Hope springs eternal.
    Senator Stevens. Thank you very much, Senator.
    Senator Mikulski. Let me move on, then, to the questions, 
and thank you for your testimony. As has been indicated, there 
are a number of Federal agencies that have been involved in the 
consequence management of anthrax exposure both to the Hart 
Building, the Brentwood Building, and then even other 
facilities that were impacted upon the mail. Initially, I 
counted 10 from the FBI and DOD and FEMA, as well as to EPA and 
OSTP. Then there is CDC, the National Institutes of 
Occupational Safety, and I could list even more. Then we 
followed long-term consequence evaluations. The CIA, the Office 
of the Vice President.
    Here is my first question, and perhaps you have covered it 
in your testimony, Ms. Whitman. Who really is in charge of 
overseeing the decontamination effort for the President, and 
therefore the Nation? Who does the President turn to when 
something has to be decontaminated or he wants to talk to that 
person? Is that you?
    Ms. Whitman. It is the site or incident commander. Here on 
the Hill it is the Sergeant of Arms, for the post office 
buildings it is the Post Office. It is generally the local or 
State first responder, it is the person who has the primary 
responsibility and makes the determinations. We act in support 
of that. Obviously, we coordinate everything through the Office 
of Homeland Security and Governor Ridge.
    Senator Mikulski. Let me back up. When the President of the 
United States needs to turn to crisis management, and let us 
say, like the terrible thing that happened in New York, FEMA is 
in charge of the consequence management, the FBI in terms of 
the crisis management in law enforcement. When you say, who is 
in charge of decontamination, and you say it is the incident 
responder, well, that could be 100.
    In other words, thank God this happened in very limited, 
but nevertheless significant institutions, but this could have 
happened in 100 different places. 100 different people cannot 
be in charge. Who is in charge for the United States of America 
in overseeing the decontamination effort, the best science, the 
best methodologies, the coordination of determining the 
criteria on how clean is safe?
    Ms. Whitman. Well, the coordinator of the overall 
responder, the person with the overall responsibility would be 
the Office of Homeland Security. Governor Ridge would be who we 
would work with, but on-site, it is the site coordinator, it is 
the first responder. That is the way that FEMA is set up, that 
is the way that emergency response has been set up in this 
country, that it is the State or local government, or the local 
on-site coordinator, as I say. For the Hill here it has been 
the Sergeant at Arms at either the Senate or the House. They 
have been the ones who have called in the responders, and to 
whom we provide information and support.

                   EPA DECONTAMINATION RESPONSIBILITY

    Senator Mikulski. So who does--I understand from your 
testimony on page 2 that you said under the Presidential 
decision directive 62 of President Clinton, you have been 
assigned the lead responsibility for cleaning up buildings and 
other sites contaminated by chemical or biological agents as a 
result of terrorism, right? Does that mean that you are in 
charge?
    Ms. Whitman. That means that we are responsible for 
overseeing that cleanup, but the building itself is still the 
responsibility of the incident coordinator on-scene. They have 
control of the building.
    Senator Mikulski. Who is in charge of the process, not the 
building? Who is in charge of the process?
    Ms. Whitman. Again, what happens is that we will provide 
the incident coordinator with the recommendations as to what 
processes are to be used, unless and until they turn the 
building over to us for the decontamination.

                          ostp responsibility

    Senator Mikulski. Well, Dr. Marburger, my understanding of 
PDD 62 is that Governor Whitman is in charge, but I was 
somewhat surprised the day that we listened to testimony from 
John Potter, the Postmaster General, when I said who is in 
charge of decontamination, he named you. So you see, this is 
part of my point, that we have essentially what looks like a 
very fragmented system that--both of you tried to respond as 
ably as you can, but we have an enormously fragmented system.
    What were you in charge of? Were you in charge of the mail 
as directed, and then Potter said--I said, well, who put 
Marburger in charge, with all due respect, and he said, Tom 
Ridge, so--and I wondered, well, what did that mean for 
Christie Todd Whitman, so what were you in charge of? Were you 
in charge of the mail?
    Dr. Marburger. Yes. Let me explain how I interpret Mr. 
Potter's remarks. The Office of Science and Technology Policy 
is not an agency that has line responsibility. We are a 
coordinating agency. We provide technical support to agencies, 
and interagency coordination of programs that may cut across 
agencies, and in general we do not become involved in 
organizations that have the scientific expertise of their own 
to do their missions, but we primarily focus on cross-cutting 
issues.
    In this case, it is my understanding that the U.S. Postal 
Service, as a quasi government agency, did not have direct 
access to scientific expertise that was necessary to evaluate 
the effectiveness of the specific sanitization process that 
they were planning to use on the mail, and Governor Ridge, who 
was coordinating the response to the mail incidents, called on 
us, OSTP, to arrange to provide technical support to the U.S. 
Postal Service. He did that as part of his responsibility, and 
as part of my responsibility I got the people together, 
contacted the appropriate agencies and provided advice only. I 
was not in charge. I provided advice to the U.S. Postal 
Service. They could take that advice or ignore it.

                 Standards for Anthrax Decontamination

    Senator Mikulski. I appreciate that. Let me go, then--
because you see, this is part of, I think the confusion that we 
face. Let us go now to the science, because again I am talking 
about who oversees the process? Governor Whitman on many 
occasions has espoused her allegiance to sound science, and we 
really thank her for that. We have been through some tough 
issues.
    But who is in charge of determining what is the best 
science for both the cleanup, and then also for determining the 
standard by which we can talk about the reentry of buildings, 
meaning, how clean is safe, and Governor Whitman, would you 
respond to that, and then of course there are the long-term 
issues.
    Ms. Whitman. Ultimately, on the determination of when a 
building is safe to reoccupy, is the responsibility of the CDC. 
That is who we look to. We will go in and do testing after the 
decontamination, and share our results with them. We share our 
results with them all the way through and work with them, 
obviously all the way through, but that would be their decision 
as to what is safe, when it is safe to reoccupy a building.
    Senator Mikulski. Have they established a criteria?
    Ms. Whitman. We are looking at this point at a criteria 
that would have no anthrax, no viable anthrax spores. You will 
have the spores if you decontaminate appropriately, but they 
will be dead. The DNA will be killed, and that is what we want 
to ascertain, that the DNA is killed, and that is up to them.
    Senator Mikulski. Let me be clear, is this a goal of kind 
of zero tolerance for anthrax spores, or is this a standard?
    Ms. Whitman. This is a goal. It is my understanding with 
CDC, that this is a goal. At this point in time, I do not know 
of any science that tells us there is a background level for 
anthrax in urban areas or in buildings. On the farm, in the 
land, yes, there is. We know there is anthrax occurring, but 
not at a background level. One should not expect a background 
level.
    Senator Mikulski. Let me reaffirm this. In order for 
Federal employees to return to either the Hart Building or our 
postal workers to return to Brentwood--remember, we want to 
have the same rigor, and stand sentry over these buildings not 
only for those at the Capitol, but for those postal workers, 
that every single aspect of those buildings will have zero 
anthrax.
    Ms. Whitman. That is what we are hoping to achieve.
    Senator Mikulski. And if you do not, does that mean we 
cannot go back, and that they cannot go back?
    Ms. Whitman. That, again, is going to be the determination 
of the CDC. That is their responsibility to decide.
    Senator Mikulski. Have they, then, determined that?
    Ms. Whitman. The Centers for Disease Control, do we have 
anything new beyond what they have said originally?
    Senator Mikulski. And I know Dr. Copland is not here, but--
--
    Ms. Whitman. At the moment, it is zero.
    Senator Mikulski. But you see, again, I am coming back----
    Ms. Whitman. There has been some discussion, I have heard 
some discussion earlier, or heard it said that there might be a 
feeling that in fact there are levels at which it does not pose 
a significant human health risk, but that is not our 
determination to make. We rely on the Center for Disease 
Control.
    Senator Mikulski. You rely on the Centers for Disease 
Control.
    Ms. Whitman. To make that determination.
    Senator Mikulski. First of all, what you are saying is, 
they do not have a standard. They have a goal.
    Ms. Whitman. Well, right now it is zero.
    Senator Mikulski. They have a goal, and they have a 
feeling. They have a goal, and they have a feeling, which I 
think presents enormous problems.
    Ms. Whitman. Well, it is not--Senator, with all respect, I 
just want to be very clear. I really cannot speak for them. We 
are operating now with the understanding from them and with 
them that we are seeking zero levels of anthrax as a result of 
the cleanup.
    Senator Mikulski. Bear with me. In other words, their 
people are saying, oh, you are going to be back in the Hart 
after Christmas. You are going to be back in the Hart on New 
Year's Eve. You are going to be--and then if we are talking 
about zero, and we are saying that is the goal, that is the 
current goal, because there seems to be a lack of certainty 
about whether that is the appropriate goal, and I am not 
arguing.
    Ms. Whitman. No, I hear what you are saying.
    Senator Mikulski. I am just saying that. I think that 
presents very serious issues. I am not saying go back and for 
it not to be zero, but there is a strong difference between 
goals and very clear standards. When you have to clean up 
Superfund sites, when you have to clean up brownfield sites, 
when you set standards for indoor air quality, you have 
standards and criteria as well as goals and objectives. They 
are two different things, so I am troubled by the absence of 
criteria, knowing that we are uncharted territory and breaking 
new ground, but is that not part of the problem?
    Ms. Whitman. Well, I think that is it. You have absolutely 
hit on it. This is something new. We have not had to deal with 
it in this kind of a situation before. It was never 
anticipated, so I can only assume that that is why there is not 
a clear standard, but we are shooting for the goal of zero live 
anthrax or DNA, viable DNA, after the cleanup.
    Senator Mikulski. So if I said to you, what would it take 
for us to be able to return to either Hart or the Postal Office 
workers to return to Brentwood, you would say a zero presence 
of anthrax.
    Ms. Whitman. Of viable DNA, yes, anthrax.
    Senator Mikulski. My time is up. Senator Bond.

                      ANTHRAX IN RUSSELL BUILDING

    Senator Bond. I am very disturbed by the answers we just 
had, because this looks to me like a real disaster. I do not 
know anything in nature that is absolutely perfect, and when we 
have dealt with cleanup in the past, I thought we have always 
had established a standard of what is dangerous and what is not 
harmful, and is it your understanding, Governor Whitman, that 
there was some incidental anthrax found in the Russell Building 
but we were permitted to stay open because it was found to be 
medically insignificant?
    Ms. Whitman. The determination to stay open would have been 
the incident commander's determination, and I know in those 
buildings we were able to get in. The surfaces to be cleaned 
were much less complicated than what we are facing in the Hart 
Building, and those areas were cleaned and were determined to 
be safe, but I know there was that discussion. That is where I 
am answering the other Senator's----
    Senator Bond. Could you assure anybody that there was not a 
single live anthrax spore left in Russell?
    Ms. Whitman. After the final cleanup we have not found any, 
but we could assure them, yes, that there were no live spores. 
We did not find any after the cleanup. We went in, cleaned up, 
retested and cleaned up.

                            MAIL IRRADIATION

    Senator Bond. Now, what little I have read about anthrax, 
it appears that for the average person you need something like 
4,000 to 5,000 airborne spores to contract inhalation anthrax. 
I might ask Dr. Marburger----
    Dr. Marburger. That is consistent with numbers that I have 
seen.
    Senator Bond. So is it consistent to assume that you could 
have--that a building which somebody had walked through a 
cattle ranch, through the building, perhaps with anthrax on his 
or her shoes from having walked through an area where there was 
livestock, cattle or sheep, is it possible that there are 
backgrounds of anthrax throughout the country?
    Dr. Marburger. If I could answer that question, perhaps go 
to the conclusion, I am uncomfortable with having anthrax 
spores in the environment, because anthrax bacillus can 
multiply, unlike, let us say, chemical contamination. That is 
the bad news. The good news is that it can be killed, unlike 
chemical contamination, and I believe that the goal of zero 
spores is under some conditions a feasible goal, because they 
can be killed. They are killed in sunlight, for example, and 
they are certainly--although they have not been completely 
validated in all conditions, there are chemical treatments that 
can kill spores.
    Certainly our expectation in the mail irradiation 
verification was that all spores would be killed in the 
irradiated mail. The time of radiation, the amount of the 
radiation to which the mail that we studied was exposed was 
virtually certain to kill all the spores.
    Senator Bond. How long a time was that?
    Dr. Marburger. It varies with the facility, the amount of 
mail, the type of irradiation. I cannot recall specifically, 
but I am sure--in the types of beams that are available in the 
Lima facility, several minutes of exposure would suffice.
    Senator Bond. For how big a batch?
    Dr. Marburger. These are for a tray of, let us say, first 
class mail, about so long and so wide, about 6 inches thick.
    Senator Bond. You are describing a process that could only 
affect an infinitesimal amount of the mail that is shipped 
through the U.S. Postal Service on a daily basis, are you not?
    Dr. Marburger. It is important to understand that there are 
different types of mail, some of which pose essentially no 
risk. It is the anonymous part of the mail stream that is 
particularly vulnerable here--the anonymous part. That is to 
say, which is not picked up at a known facility and transported 
under constant surveillance to the processing facility.
    So I prefer not to get into exactly which part of the mail 
stream is being treated in which way, but in fact I believe 
that a significant fraction of the vulnerable mail could be 
treated in this way.
    Senator Bond. I am concerned about how we are going to deal 
with this in future efforts, future actions, if this--if a 
similar occurrence affects another building, and I know there 
are private facilities that have been affected. Is it your 
understanding, Governor Whitman, would you have an oversight 
role in determining whether a facility is clean, or would this 
be the CDC that would deal with a private facility?
    Ms. Whitman. A private facility would hire their own 
contractor. We could serve as, and we do serve as advisors to 
them, and we can check the work that is being done. It would 
only be under the circumstances where we felt they absolutely 
were not performing, or they felt that they were overwhelmed, 
that we would take a more active role there.

 INDEMNIFICATION FOR CONTRACTORS, TRAINING, CHLORINE DIOXIDE TREATMENT

    Senator Bond. You described the problems that the 
contractor for the Hart Building has had, and you indicated 
that we need to refine or expand the CERCLA indemnification for 
private contractors. I trust you will be providing us the 
legislative language that you wish the EPW and other committees 
to consider.
    Ms. Whitman. Yes. We ran into this situation with the 
subcontractor of our contractor. We were able to provide the 
primary contractor with indemnification. It was extending the 
indemnification to a subcontractor that became problematic, and 
that is where we had a lot of negotiations to do.
    Senator Bond. Well, there is an article in the local paper 
today that areas which have contamination of anthrax are having 
difficulty finding contractors willing to clean up anthrax 
contamination. If any private contractor is asked to go in to 
apply a process that is still unproven, or dealing with a 
biological agent that is potentially fatal, and they do not 
have any assurance of any limitation on liability, I would 
imagine that there would be very few contractors who would take 
that on.
    What kind of structure--and I would ask you and Dr. 
Marburger--must we set up so that we will have private 
contractors who are qualified, who understand the standards, 
who would be willing to compete on a basis, knowing that there 
is a reasonable standard, reasonable procedure set up, and some 
form of insuring against horrendous liability if something goes 
on? What do we need to do to make sure not only that we get the 
governmental facilities clean, but we have private entities 
that are able to take this job on for other areas where there 
may be anthrax contamination?
    Ms. Whitman. Well, Senator, first of all I think we will 
know a lot more about what is going to be required when we are 
finished with the decontamination of the Hart Building, and 
when we have done the fumigation of the Daschle suite and 
determine the effectiveness of that. It will give us even a 
better understanding beyond what we have already determined 
with the Sandia foam and the chlorine dioxide wipe, the liquid, 
and we will have a better idea of what we are talking about.
    We need to train contractors, we need to make sure that we 
have contractors who have been through a process that gives us 
a level of comfort that they have the skills and ability to 
address these issues, but this is one where I think as we go 
through this process, we are writing the book, as you have 
pointed out before.
    We have never faced this kind of contamination from this 
sort of a biological agent in these types of facilities, so we 
are writing the book as we go along, and part of that is going 
to be what we need to do to ensure that we have enough private 
contractors out there, because you are right, there has been a 
concern about getting enough private contractors willing to 
take on the risk, who have the expertise to be able to do the 
job right, and that is the most important thing here, getting 
the job done right.
    Senator Bond. Dr. Marburger, I would like you just to close 
my question asking you to comment on that, and then the 
chlorine dioxide sounds powerful. Is it dangerous? What is the 
hazard from the cleanup?
    Dr. Marburger. Let me answer the first question first. I am 
optimistic about contractors. If we can learn enough from the 
incidents that we have now to establish clear standards for the 
contractors to follow and train to, and appropriate 
indemnification, I believe that contractors will come forward.
    For example, in the facilities that are being used for the 
mail irradiation, those facilities were designed originally for 
food and medical supply irradiation, where the standards are 
very clear and rigorous, and the equipment is appropriately 
calibrated according to NIST standards. We do have contractors 
that are capable of performing to those standards.
    For the mail, we have two contractors currently that build 
the equipment for irradiation. They know the process. We have 
been able to assist the U.S. Postal Service to verify that it 
works, and I am sure that more contractors will be willing to 
come forward and sell machines to the mail service providers, 
so that is a good case study.
    We are very fortunate in the mail case to have the example 
of the food, and the spice industry, for example, uses this, 
and the medical industry, as sort of a case study, so I think 
we can be optimistic about that.
    Regarding the chlorine dioxide, it is a very interesting 
substance. I do not think we know enough about its application 
under conditions. I certainly agree with Governor Whitman on 
this point, that we do need to have more experience, and study 
the effectiveness under different conditions under which it is 
now being contemplated to be used, but there is certainly much 
promise in the chemical treatments that are being investigated.
    Senator Mikulski. Senator Stevens.

                         HART BUILDING CLEANUP

    Senator Stevens. Thank you very much.
    Well, Doctor, following up on that, as we go back into our 
building, which I hope we do soon, and our staff wants to clean 
off, if they take a Chlorox solution and clean off their desks, 
are they helping themselves?
    Dr. Marburger. Chlorox does kill living things.
    Senator Stevens. It gets rid of anthrax, right?
    Dr. Marburger. Yes. Well, actually----
    Ms. Whitman. I do not know that I would encourage that in 
and of itself. I think the important thing to know----
    Senator Stevens. They have been told it is cleaned up. They 
want to make sure.
    Ms. Whitman. Oh, okay, they want to do extra things, that 
is fine. They are not going to hurt anything doing that.
    Senator Stevens. I am not one to criticize what is going 
on, although I have to tell you--it is not a bad sort of thing, 
but we lived in the Hart Building for 3 days after those people 
opened the envelope, and I compliment them and every one 
associated with the discovery.
    During that period of time, this anthrax had the chance of 
circulating, right? That is the fear, right, and we were trying 
to figure out the level, the area of its possible migration.
    Ms. Whitman. Right.
    Senator Stevens. Now, Senator Daschle's office is on the 
southwest, fifth and sixth floor, I am on the fifth and sixth 
floor on the northeast. We circulate through that whole place. 
My staff and I, 40 some odd people, went through there for all 
that time. Is there a way to find out the area that this stuff 
can expand to from a source like the Daschle letter? Is there a 
parameter?
    Ms. Whitman. We have now tested every one of the suites in 
the Hart Office Building.
    Senator Stevens. I understand that, but do we know how far 
it can expand itself, and how rapidly?
    Ms. Whitman. It is a question of who picks it up. I mean, 
we followed the mail trail, and that is how we were able to 
determine the other hot spots, and you were able to see cross-
contamination from the letters going through.
    Senator Stevens. With the air system, does it circulate any 
known distance? Is it known the distance it would travel a day, 
for instance?
    Dr. Marburger. You can attempt to model this, but I am not 
aware of any model that has been exercised to this extent. That 
would be a subject of a very detailed investigation.
    Senator Stevens. I am compelled to tell you that a friend 
of mine from ranch country asked me if I had thrown out our 
plants, and said that in his opinion the first place that stuff 
would go would be to the dirt. Is that right?
    Dr. Marburger. Well, it sounds logical to me, Senator.
    Senator Stevens. Have we destroyed all the plants?
    Ms. Whitman. No, sir. We are watering them.
    Senator Stevens. My rancher friend says they ought to be 
thrown away, or burned or something.
    Ms. Whitman. We would be happy to throw them away, but we 
have a contractor who is watering them and feeding the fish.
    Senator Stevens. That is an aside.
    Dr. Marburger. I believe we have to leave it up to the 
experts to determine how to detect--I mean, they think of 
things like this. We need to leave it up to them to determine 
the most likely places to take samples, and how to detect the 
existence of these spores in a building.
    You know, we do have expertise distributed throughout the 
Federal agencies, and while you might be disturbed by the fact 
that there are so many agencies involved, I am reassured by 
that fact, because it means that the people responsible are 
reaching out to people that have the knowledge. And that is the 
way it should work. Fortunately Congress, in its wisdom, has 
set up a number of coordinating mechanisms, including the 
Office of Science and Technology Policy and other 
responsibilities that are built into the agencies, EPA and FDA 
and so forth, and it is intricate. It really is intricate, but 
we are charged with the responsibilities of learning those 
intricacies and calling upon the appropriate places where 
necessary, and I believe that that is happening in this case.

            MEASURES TAKEN TO ENSURE SAFETY OF HART BUILDING

    Senator Stevens. Well, our job is a little different. We 
are going to have here, soon, the opportunity to go back into 
our offices, I hope, and we are going to have to look our staff 
in the eye and tell them that they are safe, all right.
    The chair was talking about a level of contamination. If 
you determine that a level of contamination above zero is safe, 
are there people out there that might be compromised who have 
immune systems--for instance, I have one staffer who is just 
completing radiation and chemotherapy, and there have been some 
known HIV patients in, not my staff, but in the building. Are 
there other people there that have to be considered, even if we 
go to a level above zero?
    Dr. Marburger. Senator, safe to me means safe for all, so 
if there is a determination that the building is safe to 
reoccupy, I would presume that it would be safe for anyone to 
reoccupy.
    Senator Stevens. It is going to be safe for public access?
    Dr. Marburger. Absolutely.
    Ms. Whitman. Senator, do not forget, the CDC is the one 
that will make that determination, and they are collecting all 
the health data now to make sure that when they make that 
determination, that it is one based on the best-known science 
that can assure that everyone, no matter what their individual 
health conditions, can safely reoccupy the buildings.
    Senator Stevens. That worries me, because as the ex-chair 
of the Appropriations Committee, it seems to me we are going to 
be looking for money to build some more buildings, because I do 
not know who can give an assurance that something is zero. It 
is one of those things that there are so many permutations, 
combinations of how this stuff could be transported.
    Currently we followed the trail of the mail truck, right?
    Ms. Whitman. We did the mail, yes, the mail handling.
    Senator Stevens. And we followed the air circulation.
    Ms. Whitman. Yes. Actually, we did the entire building now. 
We have gone into all the suites, even where we did not get an 
initial hit we have tested all the suites and then all the 
offices in those suites where there was any indication that 
there might have been some contamination, and those that were 
served by that particular HVAC system in Senator Daschle's 
office.
    Senator Stevens. Well, now tell me this. One of the 
announcements was that there had been a trace, there had been a 
presence of anthrax in an office, but no spores found. Can you 
explain that, Doctor?
    Dr. Marburger. No. I do not know how that would be 
determined.
    Senator Stevens. Can anthrax go through a room and leave a 
trace, without being there after it goes through?
    Dr. Marburger. Not that I am aware.
    Senator Stevens. So the spores were either there or not 
there, and as you said, Ms. Whitman, they are all right if they 
are dead.
    Ms. Whitman. Right.
    Senator Stevens. I know they can travel.
    Ms. Whitman. Well, that is why we tested throughout the 
building.
    Senator Stevens. How about my books, when I go back? My 
staff, if they reach into my library and pull out a book, are 
they going to be subject to something--you cannot have looked 
at every one of the books in my office, and all the other 
offices.
    Ms. Whitman. What we have done is, we have put the Petri 
dishes to take the samples throughout the office. There has 
been a real discussion as to whether you open--for instance, 
filing drawers, and if they were closed and have been closed 
right along, are you risking contamination by opening them 
before you have decontaminated the office entirely? We have 
been as comprehensive as we believe is necessary in order to 
anticipate any place that spores might have reached, and again, 
in any office where we got any indication that there had been 
some contamination, we did a much more thorough testing 
throughout the entire suite, in every office, on shelves--we 
have gone back into offices and moved things around to see what 
kind of resuspension there might be from the spores, and 
retested.
    So what will happen after the decontamination is, we will 
go back in and retest those places where we had contamination, 
where we cleaned, to make sure that we are not seeing any 
contamination left. Again, we want to see the spores, but we 
would like to see them hollow. We would like to see them with 
dead DNA, so that we know we have gotten them, and then the 
determination will be made for reentry after that.
    Senator Stevens. Well, so far we have had this very sad 
exposure to a series of letters. No one in our community here, 
the Senate or the House community, has gotten sick. No one has 
tested positive. Was there any----
    Ms. Whitman. There were some staff that had positive, in 
the Daschle suite anyway.
    Senator Stevens. They have been exposed, but not positive 
for having----
    Ms. Whitman. Right, but being exposed.
    Senator Stevens. So what is the standard? Should we test 
our people, Doctor, periodically? How are we going to set up 
any kind of standard of monitoring these people when they come 
back and are working for me in these rooms, and opening those 
drawers, and opening those books, and picking up those papers 
that have been there all this time?
    Dr. Marburger. Well, I would presume that there would be 
testing of the facility before the people went in and there 
should not be a presumption that they will be contaminated.
    Senator Stevens. Maybe I am missing something, but that 
tests things that are in the air or exposed. No one has gone 
inside the books. No one has gone into the drawers. No one has 
gone into the papers. How do we know they are not there?
    Dr. Marburger. I cannot answer that question.
    Ms. Whitman. All I can tell you, Senator, is that in those 
offices--and Mary Ann, correct me if I am wrong--in those 
offices where there has been any indication of contamination, 
we have made an effort--we have not opened drawers. We have not 
gone into drawers, but we have gone onto the shelves, and we 
have done swipes--what we do is not just leave Petri dishes, we 
also do the swipe test, which means we have swiped the front of 
books, we have swiped some of the books, the shelves, the cases 
where you have your file cabinets, your file cabinets, to see 
if there were any spores.
    If there were, then we would open the drawers and do the 
test. If not, there is no reason to assume that anything is in 
the drawers if it is not on the outside.
    Senator Stevens. My time is up, but Doctor, I wish we could 
take some of these critters and turn them loose in a room and 
see where they go.
    Senator Mikulski. I would like to, if I could, just give 
two questions to follow on to Senator Stevens, because he is 
talking about actually going back, gassing the Daschle office, 
but then offices like mine, which are part of those others 
where traces have--which is, how will you know about the 
upholstery? How will you know about--hello. Who are you? Hello.
    Ms. Whitman. This is our on-scene coordinator. I thought it 
might be interesting for you to hear exactly how we do the 
testing.
    Senator Stevens. Senator, I have been called to that 
meeting you thought I might be called to. Thank you, though.
    Senator Domenici. Senator, before we have him explain, 
could I ask a few questions?
    Senator Mikulski. Yes, absolutely. Then I will come back to 
him.
    Senator Domenici. I appreciate.
    Senator Mikulski. No, I just had the one item here, but 
that is okay. It is your turn.
    Senator Domenici. I have to be somewhere in 10 minutes.
    Senator Mikulski. You take all 10, sir. That is your 
prerogative.
    Senator Domenici. Thank you. First let me say to you, Madam 
Chairperson, I think calling this hearing is very good 
leadership on your part, and one thing I think we will find, 
and our staff will find, is that we need a little bit more 
expertise on our side of this in order to ask intelligent 
questions, and in order to make sure that what we are getting 
is, indeed, the right thing.
    So let me just do a little bit, then I will perhaps follow 
up on my own. Somebody can educate me so that I will be a 
better member of your subcommittee the next time we will have a 
hearing.
    First let me say to you good Doctor, I know a lot about 
you. I have not worked with you, but I was very complimentary 
when you got appointed. I remain that, and from the admiration 
that those working in the larger arena that we are engaged 
with, their admiration for you, and using your office to give 
them advice, turns out to indicate that you are in the right 
place at the right time.
    Dr. Marburger. Thank you.
    Senator Domenici. I think you hit it right on the head when 
you said there are many experts in the United States, and there 
are. I am very proud, because two of those expert institutions 
happen to be in New Mexico.
    It is not accidental that Sandia National Laboratory and 
Los Alamos, by history and by what we have asked them to do, 
happen to have a very embedded and large biological department, 
believe it or not, and in that they have some huge expertise in 
this field, and I am very grateful that they were called in 
before the final plans were implemented, and I know not whose 
plan it was, but there was certainly a plan to clean that 
building that was voted down by everybody that the 
Environmental Protection Agency called in to ask about it. In 
fact I think 20 different peer review people said, let us not 
do that plan.
    That was the plan to encapsulate the building in a balloon, 
and the balloon would then be filled with hydrochloric air, and 
then it would filtrate all through the building and get the 
spores with it. The only problem is, it had a high propensity 
for exploding, and therefore static electricity could cause it 
to blow up, and I am so glad that somebody told you all that 
before you did it, which leads me to believe that the 
Environmental Protection Agency does not have very much 
expertise on this subject, and I am not so sure that they would 
not admit that, but I do not think we need to have an argument 
about it now, I do not.
    And they need it. They need experts. The problem is, 
somebody has got to decide which experts we are going to use. 
We cannot always go out there and ask all 68 institutions and/
or centers of study to contribute, and they are out there.
    So I am pleased that we are migrating in the direction of 
the Centers for Disease Control in terms of helping with some 
standardization, drawing some conclusions as to danger, fitting 
in with that, costs, and all kinds of things we are using 
across the land when we try to define natural background of 
various pollutants. This is another new pollutant of high and 
serious consequence.
    So let me just ask, has anybody asked you, Madam 
Administrator, when we might get back into the Hart Building? 
Has that question been asked?
    Senator Mikulski. No. That was going to be one of the wrap-
ups, but you go ahead.
    Senator Domenici. Oh, excuse me. Do you want to do it?
    Senator Mikulski. No, sir.
    Senator Domenici. When are we going to be back in the 
building, and under what circumstances?
    Ms. Whitman. As soon as it is safe, and you know, we are 
starting the fumigation of the Daschle suite. Our intent is to 
do that this weekend. We still are on track for doing that this 
weekend. We are continuing at the same time to do the cleanup 
of those other offices that have had lesser levels of 
contamination. There are a few others that we believe need to 
be fumigated just because of the nature of the contamination, 
and we want to wait until we have the results back from the 
Daschle suite before we move ahead with those.
    We are looking to see if it is going to be possible to have 
a partial reoccupation of the building, but at this point in 
time I cannot promise you that, simply to say that we will do 
everything we can to get you back as soon as we can.
    Senator Domenici. Well, you may think that is a good 
answer. I do not, when you say, we will let you back in as soon 
as it is safe.
    Ms. Whitman. Well, actually, the determination will be the 
Sergeant at Arms, Senator. He will make the final 
determination.
    Senator Domenici. Well, you do not even have even a guess 
as to whether it is going to be a month, 2 months, or 6 months?
    Ms. Whitman. I could certainly tell you that I think it is 
going to be a lot shorter than 6 months or 2 months, but one of 
the things we have found as we have been going through this is 
that it changes, just as we talk about what CDC determines is a 
safe level has been a--there is no--there has been no standard 
set for biological agents. That is not something we do. That is 
something the CDC would do. That has not happened.
    They are in the process of doing that in this instance to 
see what is safe, but that is changing, so as we deal with 
changing circumstances, as we find additional contamination 
from the additional testing that we are doing, then that leads 
to more action that needs to be taken to ensure everyone's 
safety.
    Senator Domenici. Well, that is the case, and the sooner we 
decide what is safe means that you may, in fact, be able to put 
the circle around that last conclusion on your part sooner. If 
we do not know what the standard is yet--and it clearly is not 
going to be zero, as a standard. It will be something else, but 
it will not be zero.
    Unless and until we know what it is, it would seem to me 
that you will wake up every day with something else to research 
and study, and you will not have anything to measure it 
against, and we will be back here wondering if the time is yet 
arrived, so I would urge that part of the time be dedicated and 
devoted to getting some answers as to how to determine when my 
suite and other suites is actually safe, not that we are going 
to find something new all the time, but what is going to be 
safe.
    My last observation, since I have to leave, is to thank you 
for all the hard work. I do not know how many hundreds of 
people you must have on this project, but I assume you have a 
lot of them.
    Ms. Whitman. I do. Senator, let me just say that the 
determination of whether or not people can go back into the 
building is going to be a health-based decision, and it will be 
made by the Senate Sergeant at Arms based on recommendations 
they receive from the Assistant Physician to the Capitol.
    Senator Domenici. Good.
    Ms. Whitman. Based again on the tests that we do after the 
cleanup, the decontamination has taken place, whether that 
shows--what that shows as far as the success in killing the 
anthrax.
    Senator Domenici. I think that is a very positive kind of 
statement, and we can look to that as some kind of a point in 
time in any group that we can start inquiring of.
    You know, we had a situation, Madam Chairperson, when we 
had standards set for a pollutant that you have become very 
familiar with, where there was real reason to have a different 
standard in the West than there was in the East.
    Senator Mikulski. Yes.
    Senator Domenici. I do not want to raise----
    Senator Mikulski. It is another word that begins with A.
    Ms. Whitman. Another one of those A words.
    Senator Domenici. All the words I ever want to speak to an 
Environmental Protection Agency Administrator have been spoken 
about it, so I do not choose to do that. I choose to smile, 
where I really had difficulty smiling for quite some time, but 
now I would ask that we be understanding of the fact that there 
is a lot of this in the western States that is not present in 
the eastern States, and there are a lot of it present that is 
not so dangerous as we have been led to believe because of what 
we found here.
    I think it is very, very important that we be fair, and 
that as a matter of not just curiosity, but real necessity for 
knowledge, that we do try to find out the difference between 
the safety, the health hazards in the West versus the East. As 
everybody out there will tell you, right now out in the West 
you surely would not want to test the cowboy boots that came in 
from a week's work around the corrals and around cows and what 
cows put on the ground.
    You sure would not want to be out there for a week and come 
in and say, let's see if there is anthrax out here that is 
dangerous enough that we ought to be worried about. Nobody has 
been worried about it for a long, long time, but it is there, 
and nobody seems to have gotten sick over it, but it is there.
    So I would hope that between the Administrator and you good 
Doctor, that you will at least keep in your mind that there is 
a difference, and maybe the difference is insignificant, and I 
am wrong, that it is the same everywhere, but I would ask that 
you be serious about that issue as you move through.
    With that, let me just say I am very proud of the expertise 
that houses itself in New Mexico, and of their help to you thus 
far, and I believe in many ways they have been very technically 
sound.
    Ms. Whitman. They are very helpful.
    Senator Domenici. They know a lot, and they are pretty good 
at it, and we will continue to inquire of them, and if we think 
that at some point we ought to bring a few of them by to talk 
with you and your staff, that will be--if you are interested, 
we will volunteer that at some point.
    Senator Mikulski. And Senator, we will be happy to convene 
anything that you would ask us to do.
    Senator Domenici. Thank you.
    Senator Mikulski. Either a roundtable, informal, or an 
official hearing. We will enjoy working with you.
    Senator Domenici. Thank you very much. Thank you.
    Senator Mikulski. Your expertise in energy, as a senior 
member of the Energy Committee, and your knowledge of truly the 
Federal laboratories and their role, is really very much 
appreciated.
    Senator Domenici. Thank you. Thank you very much.
    Senator Mikulski. I want to ask, I want to continue the 
conversation about decontamination for a few more questions, 
one about the Hart Building, and the other about Brentwood, 
because I must center on Brentwood, and then talk with you, 
both of you about the resources you need to do, really be able 
to honor the responsibility given you now, additional 
responsibility, actual, operational responsibility, and your 
role in counterterrorism.
    You have had public directives before, but we are in the 
first war of the 21st Century, and we are all soldiers in that 
war, and we want to make sure that you have the resources.
    But I want to go to first the Hart Building, and then 
continue on the decontamination issues, and then about 
Brentwood, because it goes to the mail in the facility. We 
understand that the Senate is, in many ways, the experimental 
site, and Brentwood will be for a manufacturing facility, 
because we are an office building and they essentially, and I 
will put it in quotes, but because it is a lot of gear and 
processing and so on, it functions like a factory.
    Could you tell us what technologies were explored, to 
expunge, if you will, anthrax from the Hart Building, and how 
did you reach those decisions on what were the best 
technologies to use on the Hart Building?
    Ms. Whitman. Senator, we looked at a number of different 
technologies that are out there. There were three primary ones 
that we decided to work with, and we had a facility set up at 
Brentwood, a trailer, where we used those to determine what was 
going to be the most effective on the type of cleanup that was 
required in the different rooms.
    Again, as I indicated in my testimony, if you are dealing 
with just hard desks, metal casings, flat surfaces, then the 
Sandia foam is very effective and the chlorine dioxide liquid 
is also effective. The envirofoam is two products, an ammonia 
product and hydrogen peroxide, and it is a wipe-down process 
that is used.
    What we looked for is what was going to kill the spores, 
and then what provided us the best ability to get into every 
part of it.
    Senator Mikulski. You did all this in a trailer in 
Brentwood?
    Ms. Whitman. No. We have had--I mean, there has been 
testing done outside of this, as far as these--nothing had been 
licensed prior to these events of the 14th and 15th, the 
letters coming in to actually deal with anthrax.
    Senator Mikulski. Particularly anthrax, yes.
    Ms. Whitman. And we have had to go through the emergency 
process actually to license the chlorine dioxide and the Sandia 
for this use.
    As the Doctor pointed out, there are other spores that have 
the same characteristics as anthrax, that have been used to 
determine the effectiveness of these as cleanup methodologies, 
and they have proven their effectiveness.
    The difference in the Hart building and the Daschle suite 
is the cubic footage that is required.
    Senator Mikulski. That takes me to my question. First of 
all, what I understood is that most anthrax research in the 
last part of the 20th Century was done really to protect a 
military that could be exposed as combatants, and it was based 
on the military belief that an aerial attack could occur on our 
military, but it would be primarily an out-of-doors event, and 
it would be done on a population primarily between the ages of 
18 and 30 that could be immediately treated, removed from the 
scene, and the scene itself would be evacuated, never, ever to 
return. In other words, get the heck out of there.
    There was no experience in the view that it could happen in 
the civilian sector, and also to a great office building with 
10 million cubic feet, 50 Senators, 1,000 staff, as well as a 
postal facility that employs hundreds and even thousands of 
people, so my question was, did your information come from the 
military? Were these standard procedures that have been used in 
cleanup, and do we know the consequence, the long-term public 
health or personal health consequences of the cleanup itself?
    In other words, if we go back, and one day I am sure we 
will, are we going to be inhaling fumes? Do we know it is out 
of the upholstery? What about soft surfaces? Rugs are different 
than hard surfaces, and I am not trying to make the job more 
difficult. I would like, again--is this not the magnitude that 
you are facing, that you have to ponder and probe?
    Ms. Whitman. Yes, Senator, absolutely. These are the very 
questions that we have had to ask, and these are the questions 
that we are reaching out to a number, not just the labs that 
Senator Domenici, to which he referred. The Army, Department of 
Defense has done a lot of work in this. We work closely with 
them, Centers for Disease Control, all of our Federal partners 
we are very close contact with, and the private sector. We have 
been talking with the various companies that produce these 
kinds of decontaminants.
    I think it is important to remember that with the chlorine 
dioxide, that is a substance that actually the liquid was first 
registered by the Environmental Protection Agency as an 
antimicrobial pesticide back in 1967. It is used on municipal 
water supplies. You see it used for washing fruits and 
vegetables. You are absolutely right we have never had to use 
it in these concentrations.
    Senator Mikulski. We are not carrots.
    Ms. Whitman. No, but the point is----
    Senator Mikulski. Maybe we act like cucumbers, but--no, 
really----
    Ms. Whitman. Your point is very well taken. It is used to 
sterilize manufacturing equipment, factory equipment, so it has 
been used--the foam and the spray have both been used in 
instances where there has been subsequent human exposure, and 
that subsequent human exposure has been found to be of minimal 
negative consequence, if any. It has been determined to be 
safe, which is why it is a process that we feel relatively 
comfortable using.
    Having said that, that is why we are not letting people 
back in the building. We do not want people in the building 
when we do the fumigation, even though we are going to seal off 
the suite. We are just taking every precaution possible to make 
sure----
    Senator Mikulski. Also to people outside the building.
    Ms. Whitman. Yes, exactly--make sure that no one has any 
kind of health risk exposure that we can avoid.
    Senator Mikulski. So that is the fumigation. Now, I am part 
of this kind of Daschle 13 that was in the air vent system, and 
traces found among others. According to a Washington Post 
article you are going to use chlorine dioxide in Senator 
Daschle's office, but then also what you are going to do is 
spot clean the 10 Senators' suites. What does spot clean mean?
    Ms. Whitman. That is using----
    Senator Mikulski. Only the mailroom, or----
    Ms. Whitman. That means using the chlorine dioxide liquid 
and the Sandia foam in those areas that showed concentrations, 
or gave us anthrax hits, as it were, where we found evidence of 
anthrax, and those offices will be cleaned. The surfaces will 
be wiped down.
    Senator Mikulski. Do we know the consequence or the best 
things for upholstered furniture, or rugs? You see, there is a 
great concern among staff, and I must say I share part of it, 
which is that just the walking around on--we do not know what 
spores are on these rungs, and again you have got quite a bit 
of square footage. Are you going to be foaming rugs, and 
foaming furniture?
    Ms. Whitman. The wipe-down is going to occur on those areas 
where we have found evidence of anthrax, and we have tested 
throughout the suites. I think it might be helpful, if it is 
all right with you, if I asked Rich Rupert, who is the on-scene 
coordinator, to perhaps walk you through the testing that we 
did.
    Senator Mikulski. Well, why don't we do that, because then 
I am going to ask the same thing for Brentwood, and then I 
would like to know about----
    Ms. Whitman. It would be the same.
    Senator Mikulski [continuing]. The consequences that you 
think might occur to respiratory systems, and how we are going 
to do the monitoring, because you are going to continue to 
monitor the mail.
    Would you state for the record your name and your title?
    Mr. Rupert. My name is Rich Rupert, and I am on-scene 
coordinator.
    The approach that we are going to take----
    Senator Mikulski. Are you an employee of FDA?
    Mr. Rupert. No, ma'am, I am sorry. I am with the 
Environmental Protection Agency.
    Senator Mikulski. Okay. Go ahead.
    Mr. Rupert. In the 11--it is actually 11 suites in the Hart 
Building, and the approach that we are taking is, there were 
very localized areas where mail was handled, where we found--
you might even consider residual contamination in most cases, 
something that was obviously cross-contamination from perhaps 
the Daschle letter, and in those areas we are using the Sandia 
foam, or the chlorine dioxide liquid, where we apply it 
liberally all over the area, wipe the surfaces down. 
Upholstered furniture will be decontaminated with it, but we 
are not leaving the seats that are in the immediate area there. 
We are taking them out. Carpet in the immediate area also will 
be treated with the chlorine dioxide liquid or the Sandia foam, 
and then that carpet in the immediate area will be taken out 
also.
    Senator Mikulski. So you are going to take out carpet and 
furniture that you think might be fertile hidden caves for 
these.
    Ms. Whitman. Yes.
    Mr. Rupert. We believe that we are going to be able to have 
an effective decontamination of it, but because there is some 
unknown, we are not taking any chances. It just does not make 
sense.
    And I might add--I kind of skipped a step--after we find 
with our initial examination the anthrax detection we go in and 
we do an extensive amount of sampling, maybe 20 or 30 samples 
in a 10 by 10 foot area.
    Senator Mikulski. Well, first of all that is a pretty 
rigorous undertaking in, again, 10 million cubic feet.
    Let me ask, then, again, and then I will move to Brentwood, 
and then a resource question, you are using foam, chlorine 
dioxide wipes, spot cleanings. What is the science and the 
research and your degree of certitude related to the public 
health consequences of the cleanup. Let us assume that the goal 
is zero anthrax spores, and that you have achieved the goal. 
Then, at the same time, you have used these methods that have 
been used in other circumstances affecting people, but not 
quite like this.
    Ms. Whitman. Right.
    Senator Mikulski. What then--what is the data, or the 
source of the data to ensure that there will not be long-term 
consequences to the methodology used for decontamination on 
those of us who work in the Hart Building and those who work in 
Brentwood or other postal facilities?
    Ms. Whitman. Do you want to respond to that, Rich?
    Mr. Rupert. You are talking about the threats from the 
chlorine dioxide?
    Senator Mikulski. Yes--from anything.
    Mr. Rupert. The detection equipment that we have measures 
well below the levels that are recognized by NIOSH and other 
agencies to present a health risk.
    Senator Mikulski. Have they ever been used in a building 
like this?
    Mr. Rupert. Chlorine dioxide is used for disinfection of 
water, drinking water, particularly out West and in Europe, it 
is trickled over fruits and vegetables----
    Senator Mikulski. But I am talking about working in 
essentially a contained building with a rather mediocre heating 
and air conditioning system before the anthrax attack.
    Mr. Rupert. Yes, ma'am. On the basis of exposures that have 
been measured and assumed, with people taking showers in water 
that has been treated with chlorine dioxide, which is 
residual--you are breathing it when you are taking a shower.
    Senator Mikulski. People do not live in their shower, and 
if they do, they belong in another kind of facility.
    Mr. Rupert. Yes, ma'am.
    Senator Mikulski. I mean, really.
    Mr. Rupert. Yes, ma'am.
    Senator Mikulski. I am not being picky here.
    Mr. Rupert. No, ma'am, I understand, and I am probably not 
answering your question properly.
    Senator Mikulski. We are extrapolating from other 
circumstances, is that correct?
    Mr. Rupert. Yes.
    Ms. Whitman. Thresholds have been established. Human safety 
thresholds have been established, and subsequent to the 
decontamination we will be going back in and measuring for the 
residual dioxin, chlorine dioxin as well.
    Senator Mikulski. Will you be part of the ongoing 
monitoring team?
    Ms. Whitman. Yes, until it has been determined that it is 
safe for you to go back in, yes.
    Senator Mikulski. But once we go back in, who is going to 
be in charge of monitoring to make sure of continuing safety?
    Mr. Rupert. We will not release it until we are sure that 
it is safe to inhabit from the standpoint of the chlorine.
    Senator Mikulski. I am talking about a longitudinal study. 
Dr. Marburger, the CIA has a long-term task force, and he has 
got CIA and the Army and lots of other agencies involved 
looking at the long-term consequences of the mail. I am worried 
about the long-term consequences to the mail, but I am worried 
about the long-term consequences of the 50 Senators, 1,000 
people who work there, as well as the people who come in there.
    Ms. Whitman. Well, Senator, I think the best answer to that 
is that if you want to have an ongoing monitoring system 
established, that can be established. What we would do would be 
to determine----
    Senator Mikulski. So the Sergeant at Arms is the one to 
determine that.
    Ms. Whitman. The Sergeant at Arms would be the one to work 
with on that.
    Senator Mikulski. Right now you see your responsibility 
ending the day we walk into the door.
    Ms. Whitman. When you go back in, when it is determined to 
be safe, because we will as well--besides the anthrax, and 
determining zero anthrax, we will be looking to ensure that 
there is no residual chlorine dioxide above levels that have 
been determined by CDC and NIOSH to be safe levels in those 
offices.
    Senator Mikulski. Well, this is going to be a pretty big 
undertaking. I know everybody says maybe 2 weeks or whatever, 
but I think to achieve the standard, the goals that have been 
set, is going to be an ongoing challenge.
    Let me go to Brentwood. Who is in charge of choosing the 
method of decontaminating Brentwood? Are you overseeing the 
Brentwood cleanup?
    Ms. Whitman. No. We are offering advice to the Postal 
Service. They are making the determination there as to how to 
go forward.
    Senator Mikulski. And they chose the methodologies for 
cleanup?
    Ms. Whitman. Yes. They will be choosing that.
    Senator Mikulski. But they have not yet chosen them?
    Ms. Whitman. Nothing is happening with that facility, the 
building itself, I do not think at the moment.
    Senator Mikulski. Dr. Marburger, could you fill us in on 
Brentwood?
    Dr. Marburger. Yes, that is correct. However, there have 
been tests and fumigations of trailers, which of course are 
much smaller, on the order of, at most, 50 to 60 feet long, by 
let us say, 10 feet wide.
    Senator Mikulski. What about Brentwood itself?
    Dr. Marburger. Brentwood facility itself has not yet been 
subject, as far as I know, to fumigation.
    Ms. Whitman. It is closed indefinitely at this point.
    Senator Mikulski. So Brentwood is closed indefinitely, but 
Mr. Potter functions the way the Sergeant at Arms functions 
here.
    Dr. Marburger. Correct.
    Ms. Whitman. Right.
    Senator Mikulski. But then for Mr. Potter you assembled the 
technical advisory team for the mail. Have you assembled the 
technical advisory team for Mr. Potter in terms of his 
decontamination?
    Ms. Whitman. We have provided the support that he has asked 
for, yes. We are there providing support to him, recommending 
different methodologies for cleanup that can be used, and we 
stand ready to continue in that role.
    Senator Mikulski. And then Mr. Potter is also turning to 
the CDC as well.
    Ms. Whitman. Yes.
    Senator Mikulski. So essentially what you are doing at 
Hart, Potter is doing at Brentwood, but he can turn to both of 
you for advice and technical assistance. The decisionmaking on 
methodologies will be there, but again, for the standard of how 
clean is safe, Mr. Potter would ben turning to the CDC.
    Ms. Whitman. That is right.
    Senator Mikulski. Am I correct, and that there would be the 
ongoing testing of Brentwood and other postal facilities, but 
Brentwood is indefinitely closed.
    Ms. Whitman. Yes.
    Senator Mikulski. That is essentially the way it is 
working?
    Ms. Whitman. Right, correct.
    Senator Mikulski. Well, I know we spent a lot of time on 
Hart, because I think Hart in some ways is the model. Am I 
correct in that?
    Ms. Whitman. It is the biggest challenge we have ever 
faced, yes.
    Senator Mikulski. It is the biggest challenge, not that 
Brentwood is not, but that the lessons learned from us, here at 
the Capitol, will then be applicable for Brentwood and other, 
including private sector facilities.
    Well, this has been illuminating in terms of what all you 
had to do, but this had to be very expensive from the 
standpoint of both finances and staff, I believe, Administrator 
Whitman, on the Environmental Protection Agency. I happen to 
believe that you have more expertise than sometimes EPA is 
given credit for.
    Ms. Whitman. I think we do, Senator.
    Senator Mikulski. And you have the availability to turn to 
other scientific endeavors. Could you tell me now, with your 
new--and also, Dr. Marburger, I believe that you will be called 
upon for other responsibilities, for assembling technical 
assistance, or even given insights and recommendations to the 
President on where we should be deploying some of our resources 
for what we are going to need from the scientific community. 
Could you share with us what new jobs you think you are going 
to have, or new roles, and what resources do you need?
    I know you are going to--quote, you want authority to 
recapture costs, but-- and that is an excellent authority, 
along with the contractors. We are not disputing that.
    Ms. Whitman. No, no. I understand.
    Senator Mikulski. But what funding do you think EPA and 
OSTP need in the short term, and looking ahead to next year's 
budget cycle?
    Ms. Whitman. Well, Senator, as far as the anthrax 
decontamination is concerned, we have spent about $7.5 million 
thus far, and anticipating looking to the future for all 
things, not just Capitol Hill, but the rest of D.C. and the 
rest of the country in cleanup, it could be upwards of $20 
million.
    There also is obviously the need, we believe, to do 
training and get additional equipment so that we are prepared 
to be able to respond to these kinds of things if they occur 
again in greater numbers for criminal investigation and 
emergency response, and again we are in the process of 
determining what those numbers will be, because we are learning 
as we go along.
    Senator Mikulski. Is this the training of your own, of 
other environmental EPA staff, or is this the training you 
referred to with my colleagues for the private sector?
    Ms. Whitman. It is both--both, and that could be, you know, 
upwards of another $55 million, but those are not hard and fast 
numbers at this point. We are, as I say, learning as we go 
along. Those are what we anticipate at this point.
    Senator Mikulski. Well, I want to also ask the same 
question of Dr. Marburger. You see, I think those are valid 
requests. Our VA-HUD bill, which funds you for the fiscal year 
of 2002, has already passed, so my question is, do you need 
help in the supplemental?
    Ms. Whitman. There is already, as I understand what has 
been done in the supplemental in the House, there has been some 
money set aside for the Environmental Protection Agency. 
Obviously, we would welcome it.
    Senator Mikulski. I do not want to get you into trouble 
with OMB.
    Ms. Whitman. Thank you, Senator.
    Senator Mikulski. But if we gave you help----
    Ms. Whitman. We could use it.
    Senator Mikulski. Okay, and these are current estimates, 
and I will be working with the head of OMB for the President's 
budget, and I would really urge you in the strongest way to 
identify these as really needed resources, because it is in the 
President's budget. We could work with you and even grant a 
supplemental that will come in the spring.
    Dr. Marburger, what about you?
    Dr. Marburger. OSTP is a coordinating agency, and the work 
that we do comes from Governor Whitman's budget, so indeed the 
agencies have been very generous with the time and people that 
we have called upon to help, and those agency budgets certainly 
need to be sustained. So we are a small office. We still have 
uncommitted vacancies available to us. We are staffing up. As 
you know, in the transition process a number of terms expired 
and we have openings that we still can fill to add our staff, 
and we certainly need those people.
    Senator Mikulski. You need additional expertise?
    Dr. Marburger. In these areas we have the ability to hire 
the expertise that we need for the coordination process, but we 
do call upon, and heavily, upon the agencies for the expertise, 
and that is where the money is. They have the responsibility 
for the programs.
    Senator Mikulski. So that you are operating off of what we 
would call detailees.
    Dr. Marburger. That is correct, detailees, and more than 
that, remember these expert teams are not even detailees. They 
are actually employees, actively working at their jobs in the 
agencies like EPA or FDA, USDA, and they are performing their 
jobs in those agencies as they help on these cross-cutting 
teams, so they are coming together. I would say it is part of 
their job responsibility within their agency to provide the 
service to the other agencies in a team fashion, and it works 
well.
    Senator Mikulski. Well, I know that in 1994 the Office of 
Technology Assessment that was under the Science Advisor was 
disbanded, then both your predecessors, Drs. Gibbons and Lane, 
functioned along the lines that you have talked about. I am not 
interested in helping you create a new Office of Technology 
Assessment, though my own view is it should not ever have been 
disbanded. I think we could have used it, perhaps scaled down.
    But as you move ahead, I really do believe that as we get 
more involved in our issues, in protecting our country, that 
the Science Advisor's role will only be enhanced, and we look 
forward to working with you.
    We would also ask you, because we know you have the ear of 
the President and his top team, to really be an advocate for 
these agencies through the OMB process so that they are not 
misunderstood to look like they are building bureaucracies or 
empires. Really, Administrator Whitman has a big job ahead. We 
think of Dr. Copland at FDA--not FDA, excuse me, CDC. CDC has 
always had to forage for funds. They are in several out-of-date 
buildings that need to be renovated so that the scientists can 
work really with the best available technology. they need help.
    So we are really going to need you to be an advocate so 
that we do not look like we are big spenders, but that we are 
wise spenders, because really I believe that it is in our 
scientific community that this has worked so well.
    And you know, first of all I want to thank you again for 
all the hard work you have been doing on this, and we would 
like to thank your staffs and all the hours, because I know 
there were days and weeks when you were going 24-7, so I want 
to express my appreciation.
    But you know, it is really an incredible country. When you 
listen to the agencies that were involved, where both the 
civilian and military community could come together, their 
appropriate roles constitutionally were maintained, and yet we 
all kind of pulled together, and in other countries the 
military is so suspect. Their information is so secret. There 
is nothing that they would share with the civilian population, 
and in fact they are often feared by their own civilian 
population.
    So this is a great country, and we have got a big job ahead 
of us, and remember, we are all soldiers, that we serve in 
different platoons, so we look forward to working with you.

                         CONCLUSION OF HEARING

    This subcommittee stands in recess, subject to the call of 
the Chair.
    [Whereupon, at 4:49 p.m., Wednesday, November 28, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
